<html>
<title> - OVERSIGHT FIELD HEARING ON ENSURING LOCAL INPUT, LEGAL CONSISTENCY AND MULTI-USE RESOURCE MANAGEMENT IN ST. GEORGE BLM PLANNING</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


    ENSURING LOCAL INPUT, LEGAL CONSISTENCY AND MULTI-USE RESOURCE 
                 MANAGEMENT IN ST. GEORGE BLM PLANNING

=======================================================================

                        OVERSIGHT FIELD HEARING

                               BEFORE THE

                     SUBCOMMITTEE ON FEDERAL LANDS

                                 OF THE

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

              Friday, January 22, 2016 in St. George, Utah

                               __________

                           Serial No. 114-28

                               __________

       Printed for the use of the Committee on Natural Resources
       
       
       
       
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
          
          
                              ______________
                              
                              
                    U.S. GOVERNMENT PUBLISHING OFFICE
98-446 PDF                 WASHINGTON : 2016                    
      
_________________________________________________________________________________________                     
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="90f7e0ffd0f3e5e3e4f8f5fce0bef3fffdbe">[email&#160;protected]</a>  
                    
                     
                     
                     
                     
                     COMMITTEE ON NATURAL RESOURCES

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Grace F. Napolitano, CA
Louie Gohmert, TX                    Madeleine Z. Bordallo, GU
Doug Lamborn, CO                     Jim Costa, CA
Robert J. Wittman, VA                Gregorio Kilili Camacho Sablan, 
John Fleming, LA                         CNMI
Tom McClintock, CA                   Niki Tsongas, MA
Glenn Thompson, PA                   Pedro R. Pierluisi, PR
Cynthia M. Lummis, WY                Jared Huffman, CA
Dan Benishek, MI                     Raul Ruiz, CA
Jeff Duncan, SC                      Alan S. Lowenthal, CA
Paul A. Gosar, AZ                    Matt Cartwright, PA
Raul R. Labrador, ID                 Donald S. Beyer, Jr., VA
Doug LaMalfa, CA                     Norma J. Torres, CA
Jeff Denham, CA                      Debbie Dingell, MI
Paul Cook, CA                        Ruben Gallego, AZ
Bruce Westerman, AR                  Lois Capps, CA
Garret Graves, LA                    Jared Polis, CO
Dan Newhouse, WA                     Wm. Lacy Clay, MO
Ryan K. Zinke, MT
Jody B. Hice, GA
Aumua Amata Coleman Radewagen, AS
Thomas MacArthur, NJ
Alexander X. Mooney, WV
Cresent Hardy, NV
Darin LaHood, IL

                       Jason Knox, Chief of Staff
                      Lisa Pittman, Chief Counsel
                David Watkins, Democratic Staff Director
             Sarah Parker, Democratic Deputy Chief Counsel
                                
                                
                                
                                ------                                


                     SUBCOMMITTEE ON FEDERAL LANDS

                      TOM McCLINTOCK, CA, Chairman
              NIKI TSONGAS, MA, Ranking Democratic Member

Don Young, AK                        Matt Cartwright, PA
Louie Gohmert, TX                    Donald S. Beyer, Jr., VA
Glenn Thompson, PA                   Pedro R. Pierluisi, PR
Cynthia M. Lummis, WY                Jared Huffman, CA
Raul R. Labrador, ID                 Alan S. Lowenthal, CA
Doug LaMalfa, CA                     Debbie Dingell, MI
Bruce Westerman, AR                  Lois Capps, CA
Dan Newhouse, WA                     Jared Polis, CO
Ryan K. Zinke, MT                    Vacancy
Jody B. Hice, GA                     Vacancy
Thomas MacArthur, NJ                 Vacancy
Cresent Hardy, NV                    Raul M. Grijalva, AZ, ex officio
Darin LaHood, IL
Rob Bishop, UT, ex officio

                                ----------                                
                                 
                                 
                                 CONTENTS

                                 ----------                              
                                                                   Page

Hearing held on Friday, January 22, 2016.........................     1

Statement of Members:
    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah, prepared statement of.............................     8
    Lowenthal, Hon. Alan S., a Representative in Congress from 
      the State of California....................................     5
        Prepared statement of....................................     6
    McClintock, Hon. Tom, a Representative in Congress from the 
      State of California........................................     2
        Prepared statement of....................................     4
    Stewart, Hon. Chris, a Representative in Congress from the 
      State of Utah..............................................     9

Statement of Witnesses:
    Clarke, Kathleen, Director, State of Utah Public Lands Policy 
      Coordinating Office, Salt Lake City, Utah..................    15
        Prepared statement of....................................    16
    Gardner, Alan, Commissioner, Washington County, Utah.........    30
        Prepared statement of....................................    31
    Pike, Jon, Mayor, City of St. George, Utah...................    25
        Prepared statement of....................................    27
    Van Dam, Paul, Former Executive Director, Citizens for 
      Dixie's Future; Former Attorney General, State of Utah, 
      Ivins, Utah................................................    19
        Prepared statement of....................................    20
    Whitlock, Jenna, Acting State Director, Utah Office, Bureau 
      of Land Management, Salt Lake City, Utah...................    11
        Prepared statement of....................................    12

Additional Materials Submitted for the Record:

    List of documents submitted for the record retained in the 
      Committee's official files.................................    58

    Utah Farm Bureau Federation, prepared statement of...........    34

    Utah Wilderness Coalition, prepared statement of.............    45
                                     


 
OVERSIGHT FIELD HEARING ON ENSURING LOCAL INPUT, LEGAL CONSISTENCY AND 
        MULTI-USE RESOURCE MANAGEMENT IN ST. GEORGE BLM PLANNING

                              ----------                              


                        Friday, January 22, 2016

                     U.S. House of Representatives

                     Subcommittee on Federal Lands

                     Committee on Natural Resources

                            St. George, Utah

                              ----------                              

    The subcommittee met, pursuant to call, at 10:05 a.m., in 
the Entrada Room B/C, Dixie Convention Center, 1835 South 
Convention Center Drive, St. George, Utah, Hon. Tom McClintock 
[Chairman of the Subcommittee] presiding.
    Present: Representatives McClintock, Bishop, Westerman, 
Hardy, and Lowenthal.
    Also Present: Representatives Stewart and Chaffetz.
    Mr. McClintock. The hearing will come to order. The 
Subcommittee on Federal Lands of the House Natural Resources 
Committee meets today to hear testimony on ``Ensuring Local 
Input, Legal Consistency, and Multi-Use Resource Management in 
St. George BLM Planning.''
    By way of introduction, I am Congressman Tom McClintock. I 
chair the Subcommittee on Federal Lands and represent the 4th 
District of California.
    Also joining us today is the Chairman of the Natural 
Resources Committee, Congressman Rob Bishop, and also 
Congressman Alan Lowenthal, who will be the acting Democrat for 
the subcommittee today--that is the acting ranking Democrat, he 
is an actual Democrat.
    Also with us are Subcommittee Members Bruce Westerman of 
Arkansas and Congressman Cresent Hardy of Nevada.
    We are joined also today by Congressman Chris Stewart, 
whose district is the subject of today's hearing, and 
Congressman Jason Chaffetz.
    I would ask unanimous consent that they be allowed to sit 
with the subcommittee and participate in today's hearing. With 
no objection, so ordered.
    I will now begin the proceedings with a prayer, the 
Presentation of Colors, and the Pledge of Allegiance.
    To lead us in prayer, the Chair recognizes County 
Commissioner Victor Iverson.
    [Prayer.]
    Mr. McClintock. The Chair will now ask the Washington 
County Sheriff's Office Honor Guard to do the Presentation of 
Colors. All rise.
    [Presentation of Colors.]
    [Pledge of Allegiance.]
    Mr. McClintock. Thank you. You may all be seated.
    We would like to welcome you all here today. The Chair 
would like to begin, as is customary at these field hearings, 
to recognize the Congressman from this district, Chris Stewart, 
for a few introductory remarks.
    Mr. Stewart. Thank you, Chairman. I wanted to just take 
this opportunity to thank Chairman Bishop, Chairman McClintock, 
Ranking Member Lowenthal, and other Members who have traveled 
here today. It was a difficult thing for me to ask for your 
time and take you away from your family and your own districts.
    Thank you Congressman Chaffetz, who is with us as well.
    This is an important issue. Again, thank you all for 
joining us. As a representative of the district, we just want 
you to know that the citizens are grateful for your 
participation, grateful for the opportunity to address these 
issues, and we look forward to a valuable and, we hope, a 
fruitful hearing. So, thank you.
    Mr. Chairman, I yield back.
    Mr. McClintock. Great, thank you.
    All of you with signs, why don't you hold them up right now 
and make as much noise as you want.
    [Audience cheers.]
    Mr. McClintock. OK. Now, that's it.
    I have to remind you that this is a formal hearing of the 
House of Representatives. We are under Congressional Rules. No 
further demonstrations would be appropriate in this hearing, so 
I would ask you to respect that and to respect the solemnity of 
these hearings. So, all the signs need to go down now. Thank 
you.
    We will now begin with the 5-minute opening statements of 
myself; Representative Lowenthal; the Chairman of the Full 
Committee, Mr. Bishop; and Representative Stewart.

   STATEMENT OF THE HON. TOM McCLINTOCK, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. McClintock. Today the Subcommittee on Federal Lands has 
come to St. George to hold an oversight hearing on the Bureau 
of Land Management's draft Resource Management Plan pursuant to 
the Omnibus Public Land Management Act of 2009. We are here 
because Congress is hearing a crescendo of complaints about BLM 
tactics and policies across the country, and St. George seems 
to be a poster child of BLM bad behavior. We are here to get to 
the bottom of it.
    During this congressional session, the Federal Lands 
Subcommittee has sought to reinstate three fundamental 
principles for our stewardship over the Federal lands.
    First, to restore the public's right to use and enjoy 
public lands. Preserving our lands for future generations does 
not mean closing them to this generation.
    Second, to restore principles of sound management to the 
public lands. That was Gifford Pinchot's maxim for the Forest 
Service, to manage the lands for the greatest good for the 
greatest number in the long run.
    Third, to restore the Federal Government as a good neighbor 
to those communities that are impacted by Federal land 
ownership. That means we do not run roughshod over the wishes 
of local communities.
    We are concerned that a corporate culture has taken root 
within BLM that is antithetical to these principles.
    In 2009, Congress adopted and the President signed the 
Omnibus Public Land package that reflected years of good-faith 
discussions and concessions made by the elected representatives 
of the communities directly impacted by these policies. For 
many years, members of this community, from grazers to 
recreationists to environmentalists, worked together to craft a 
bill that would shape the future management of Federal lands in 
this county. Local officials reluctantly agreed to designate 
over 100,000 acres of new wilderness in exchange for the 
promise of multiple-use activities on the remaining Federal 
lands, which are the lifeblood of this community.
    As a result, the bill was hailed as a unique compromise 
among extremely disparate parties and a successful model for 
future collaborative agreements. It then fell to BLM to write 
regulatory plans in good faith to carry out this unique 
compromise.
    Instead, we are informed that the local communities, who 
trusted this process, now believe the BLM was bargaining in bad 
faith and that its current proposal makes a mockery of the 
promises both implicit and explicit in that law. The 
overwhelming consensus of these local representatives today is 
that what was painstakingly agreed to in the legislation that 
they negotiated and that Congress ratified has since been 
distorted by unelected BLM bureaucrats to fit a narrow 
ideological agenda.
    What we are hearing, loud and clear, is that these draft 
plans would dramatically restrict the public's right to the 
full range of uses that they were promised, including a local 
transportation corridor, motorized recreation, grazing, and 
other activities.
    We are also hearing that the draft plans are inconsistent 
with the law that includes several provisions specific to the 
future of Federal land management in this county.
    Finally, the subcommittee is very concerned with reports 
that BLM bureaucrats have deliberately ignored these concerns 
when local governments and concerned citizens have repeatedly 
raised them.
    This subcommittee normally does not hold hearings on 
individual land use plans, but it appears that the BLM, which 
administers nearly half of the land area of Washington County, 
has ignored the will of Congress and thumbed its nose at the 
people whose taxes support this government and whose 
livelihoods and quality of life are now directly threatened by 
it.
    When one of Darth Vader's victims protests, ``But that's 
not our agreement,'' Darth Vader sneers, ``I am altering the 
agreement; pray I do not alter it further.'' If bad faith and 
empty promises become the coin of the Federal realm, it is 
highly unlikely anyone will enter into land use negotiations 
with it again or trust it in the future.
    Instead, St. George will be used as a cautionary tale that 
Ronald Reagan was right when he said if you get in bed with the 
Federal Government, you had better be prepared for something 
more than a good night's sleep.
    We are here because Congress will not allow that to become 
the story of St. George and the BLM, and I would remind the BLM 
that in the original story of St. George and the dragon, St. 
George won.
    [The prepared statement of Mr. McClintock follows:]
 Prepared Statement of the Hon. Tom McClintock, Chairman, Subcommittee 
                            on Federal Lands
    Good morning. Today, the Subcommittee on Federal Lands meets in 
beautiful St. George to hold an oversight hearing on the Bureau of Land 
Management's draft Resource Management Plans for the Beaver Dam Wash 
and Red Cliffs National Conservation Areas and St. George Field Office, 
which were publicly released in July 2015.
    The hearing will cover an all-to-typical problem: the BLM has 
produced a plan that is unnecessarily restrictive, does not adequately 
reflect concerns raised by locals, and represents the latest in myriad 
Federal land use plans from this Administration that favor locking up 
Federal land over responsible multiple-use.
    Local officials and members of the community are very concerned 
that these draft plans, if implemented, would unduly restrict multiple-
uses in the area, including motorized recreation, grazing, and other 
activities. There are also concerns that the draft plans are 
inconsistent with the 2009 Omnibus Public Land package, which included 
several provisions specific to the future of Federal land management in 
the county. Finally, it appears that BLM did not sufficiently 
coordinate with and incorporate feedback from local governments and 
members of the community in the development of the draft plans.
    If we held a hearing on every Federal land use plan in the West, we 
wouldn't have time to do anything else. But this circumstance is 
unique. First, BLM administers approximately 629,000 surface acres of 
Federal lands in Washington County, which is nearly half of the entire 
county. This RMP guides the management of those lands, and therefore 
directly impacts the livelihood of the citizens of St. George and 
across the county.
    Second, for many years members of this community--from grazers to 
recreationists to environmentalists--worked together to craft a bill 
that would shape the future management of Federal lands in the county. 
In the bill, locals agreed to the designation of over hundred thousand 
acres of new wilderness in exchange for the reasonable continuation of 
the multiple-use activities on Federal lands--motorized recreation, 
grazing, and other activities--which are the lifeblood of this 
community. As a result, the bill was widely regarded as a unique 
compromise among extremely disparate parties and a potential template 
for other counties or regions with large amounts of Federal land.
    After that bill was signed into law in 2009, it was up to BLM to 
write regulatory plans that upheld that unique, hard-sought compromise. 
Since the release of the draft plans last summer, many members of the 
community have decried them as unduly restrictive, particularly with 
regard to grazing and motorized recreation, inconsistent with the 2009 
law, and devoid of many of the most important provisions to the 
community, including a transportation corridor north of St. George. In 
essence, many felt that BLM didn't hold up their end of the bargain.
    This public outcry, which has been overwhelming, leads me to 
believe that additional investigation is needed to understand how we 
got here and how we can assure that BLM writes and implements a plan 
that it, members of the local community, grazers, recreationists, 
environmentalists, and others can be proud of. Such a plan must comply 
with the spirit and letter of the Washington County public lands law 
and be designed in tandem with those that will be directly impacted by 
it.
    This hearing should not have been necessary. If BLM had done a 
better job genuinely addressing concerns from local officials and 
members of the public on this land use plan, I highly doubt we would be 
sitting before you today. Nonetheless, I hope this hearing will compel 
BLM to recognize and address those concerns in the final plans.
    Following the hearing, Congressman Stewart will host a public 
listening session to hear thoughts from members of the public on this 
and other important issues facing southwestern Utah.
    With that, I look forward to hearing testimony from today's 
witnesses. I now recognize the Ranking Member for his statement.
    Thank you.

                                 ______
                                 

    Mr. McClintock. I now recognize the Ranking Member for his 
opening statement.
    Congressman Lowenthal.

 STATEMENT OF THE HON. ALAN S. LOWENTHAL, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Lowenthal. Thank you, Chairman McClintock, Chairman 
Bishop, Member Stewart. Thank you for hosting us, and I really 
appreciate the opportunity to be here. I am Congressman Alan 
Lowenthal, a member of the Natural Resources Committee and 
Ranking Member on Energy and Mineral Resources. I appreciate 
the opportunity to be able to fill in for Ranking Member 
Tsongas on the Federal Lands Subcommittee. She wanted to attend 
today's hearing, but a previously scheduled commitment made it 
impossible for her to make the trip.
    It is not every day that we get to meet outside the 
confines of Washington, DC; so, I would like to thank again 
Chairman Bishop and Representative Stewart for hosting us here 
in Utah. It is a welcome opportunity. It is now beginning to 
snow there, and I anticipate 30 inches by the time the day is 
over.
    Our country is blessed to have many special places from 
coast to coast, from Maine to my home state of California. But 
one place that consistently arises on the committee as a topic 
is Utah, and southern Utah specifically. That is because the 
Red Rock Country is a treasure that all Americans are proud of, 
unique to the world and replete with natural archeological and 
cultural wonders. Many of my constituents come to Red Rock 
Country for hiking, for adventure, for solitude, and, from what 
I hear, they want this experience to be protected for future 
generations.
    I also hear that there are many here in Utah who are 
concerned about the wild and pristine nature of Utah's Red Rock 
Country that it is being eroded by short-sighted greed and 
improper development. That is why I am the sponsor of America's 
Red Rock Wilderness Act, and that is why I am here to talk 
about the importance of Red Cliffs National Conservation Area, 
an area that has already gained protection and is enjoyed by 
tens of thousands of Americans every year.
    This land is not only a lifesaver for the desert tortoise, 
its popularity is an economic driver for Washington County. The 
Omnibus Public Land Management Act of 2009 contains several 
provisions related to the management of public lands here in 
Washington County, including the establishment of Red Cliffs 
and Beaver Dam Wash National Conservation Areas. With 
significant input from the Utah delegation at the time, 
Congress established these National Conservation Areas for the 
purpose of protecting and enhancing their scenic and natural 
resources, including protecting habitat for endangered and 
threatened species, like the desert tortoise.
    BLM management of public lands within these National 
Conservation Areas (NCAs) has to be consistent with this 
legislative mandate from Congress. BLM's current planning 
process underway in Washington County has caused some 
commotion, and while I understand there is some disagreement 
about the agency's objectives in Washington County, I hope we 
can have a constructive conversation that enables everyone to 
tell their side of the story and opens up a channel for 
constructive collaboration. Finger-pointing will not get us 
anywhere.
    Today's hearing should be an opportunity to listen, to ask 
questions and clear up confusion, not to spread rumors or to 
create animosity. BLM has put years of work into producing the 
thousand-plus page planning document for the public lands that 
are administered by the St. George Field Office. They have 
received hundreds, if not thousands, of comments and, in an 
open and transparent fashion, are making decisions that are 
consistent with the law and reflective of congressional intent.
    I can tell you, after just arriving here, that St. George 
is a growing community. Putting disagreements aside, we have to 
recognize the complexity of developing a management plan that 
prioritizes conservation, as Congress intended, and satisfies 
regional development needs.
    In conclusion, I recognize that many people in this 
community see the construction of a highway through Red Cliffs 
National Conservation as a viable transportation solution for 
the region. However, like any community anywhere in the world, 
there is not one set of opinions or visions for the future. 
That is why we have invited Paul Van Dam to be the Democratic 
witness. Mr. Van Dam is a former Utah Attorney General and the 
former Executive Director of Citizens for Dixie's Future. He is 
a long-time resident of Washington County and is deeply 
committed to its future. He brings a welcome perspective to the 
panel, and I look forward to hearing his testimony.
    This hearing is a great opportunity to discuss the range of 
different perspectives, and I hope that we can have a 
constructive and meaningful conversation.
    With that, Mr. Chairman, I yield back.
    [The prepared statement of Mr. Lowenthal follows:]
   Prepared Statement of the Hon. Alan S. Lowenthal, Ranking Member, 
                     Subcommittee on Federal Lands
    Thank you, Chairman McClintock, it is a pleasure to be here in St. 
George today.

    I appreciate the opportunity to fill in for Ranking Member Tsongas 
on the Federal Lands Subcommittee today. She really wanted to attend 
today's event, but a previously scheduled commitment made it impossible 
for her to make the trip to St. George.
    It's not every day that we get to meet outside the confines of the 
Longworth House Office Building in Washington, DC, so I would also like 
to thank Chairman Bishop and Representative Stewart for hosting us here 
in Utah. This is a welcome opportunity to get a close-up look at an 
important set of issues in Washington County.
    Our country is blessed to have many special places from coast to 
coast, from Maine to my home state of California; but one place that 
consistently arises on this committee as a topic is Utah, and southern 
Utah specifically. That's because the Red Rock Country is a treasure 
that all Americans are proud of, unique to the world and replete with 
natural, archeological and cultural wonders. My constituents flock to 
Red Rock Country for hiking, for adventure, for solitude, and what I 
hear from them is that they want this experience protected for future 
generations.
    And I hear also from so many Utahns, who are concerned that the 
wild and pristine nature of Utah's Red Rock Country is being eroded by 
short-sighted greed and improper development. That is why I am the 
sponsor of America's Red Rock Wilderness Act, and why I'm here today to 
talk about the importance of the Red Cliffs NCA, an area that has 
already gained protection and is enjoyed by tens of thousands of 
Americans every year.
    This land is not only a lifesaver for the desert tortoise, its 
popularity is an economic driver for Washington County.
    The Omnibus Public Land Management Act of 2009 contained several 
provisions related to the management of public lands here in Washington 
County, including the establishment of Red Cliffs and Beaver Dam Wash 
National Conversation Areas. With significant input from the Utah 
delegation at the time, Congress established these National 
Conservation Areas for the purposes of protecting and enhancing their 
scenic and natural resources, including protecting habitat for 
endangered and threatened species like the desert tortoise. BLM 
management of public land within these NCAs has to be consistent with 
this legislative mandate from Congress.
    BLM's current planning process underway in Washington County has 
caused a lot of commotion, and while I understand that there is some 
disagreement about the agency's objectives in Washington County, I hope 
we can have a constructive conversation that enables everyone to tell 
their side of the story and opens up a channel for constructive 
collaboration.
    Finger-pointing will not get us anywhere. Today's hearing should be 
an opportunity to listen, ask questions, and clear up confusion, not 
spread rumors or create animosity.
    BLM has put years of work into producing the thousand-plus page 
planning document for the public lands administered by the St. George 
Field Office. They have received hundreds, if not thousands, of 
comments and, in an open, transparent fashion, are making decisions 
that are consistent with the law and reflective of congressional 
intent.
    I just arrived here today, but I can tell that St. George is a 
growing community. Putting disagreements aside, we have to recognize 
the complexity of developing a management plan that prioritizes 
conservation, as Congress intended, and satisfies regional development 
goals.
    I recognize that many people in this community see the construction 
of a highway through Red Cliffs National Conservation Area as a viable 
transportation solution for the region. However, like any community, 
anywhere in the world, there is not one set of opinions or vision for 
the future. That's why we have invited Paul Van Dam to be the 
Democratic witness. Mr. Van Dam is a former Utah Attorney General and 
the former Executive Director of Citizens for Dixie's Future. He is a 
long-time resident of Washington County and is deeply committed to its 
future. He brings a welcome perspective to the panel and I look forward 
to hearing his testimony.
    Like I said before, this hearing is an opportunity to discuss a 
range of different perspectives and I hope we can have a constructive 
and meaningful conversation.

    With that, Mr. Chairman, I yield back.

                                 ______
                                 

    Mr. McClintock. Thank you very much.
    The Chairman of the Full Committee, Mr. Bishop, has asked 
to defer his remarks until the end of the hearing.
    Mr. Bishop. I would like to say one thing.
    Mr. McClintock. The Chairman is recognized.
    Mr. Bishop. I do want to defer my remarks until the end. I 
appreciate that. But, I have to re-emphasize the rules of the 
House. Everyone who is here is on a time limit. If you applaud 
because you like something or do any other demonstration 
because you don't, you cut into their time. Applause is not 
allowed; so please, whether you like it or not, don't do 
anything. Those are the rules, and we have to do this. So, 
thank you for being here.
    This is not a town hall meeting. This is a congressional 
hearing. You have to obey the Congressional Rules whether you 
like it or not. So, no applause, no signs, those are the rules. 
Please abide by that, because if you don't, you cut into the 
testimony.
    I don't want to make a statement now, I want to get to the 
testimony. I appreciate that. I will say something later on.
    So, thank you, Mr. Chairman.
    [The prepared statement of Mr. Bishop follows:]
   Prepared Statement of the Hon. Rob Bishop, Chairman, Committee on 
                           Natural Resources
    I'm happy to be in my home state and Representative Stewart's 
district to participate in an oversight hearing on the BLM's draft 
Resource Management Plans for the Beaver Dam Wash and Red Cliffs 
National Conservation Areas.
    We're here today to examine what seems to be overly restrictive 
draft land use plans for Washington County and inconsistencies between 
those plans and the Washington County law that passed Congress and 
became law in 2009.
    BLM has been working on these plans since 2010, shortly after the 
2009 Omnibus Public Land bill was signed into law. Among other things, 
that law created 14 new Wilderness Areas and 2 National Conservation 
Areas in the county.
    That bill was signed into law due to the hard work of this 
community. It took a lot compromise to get there; the county agreed to 
the designation of much more wilderness than it was comfortable with in 
exchange for continued opportunities for grazing, motorized recreation, 
and other multiple-use activities on the lands outside of wilderness. 
Unfortunately, the spirit of that compromise, and the good faith 
negotiations that went into crafting it, appear to have been at best 
ignored, and at worst forgotten, by BLM.
    As we hear almost daily in front of my committee, good people 
negotiate in good faith with the Federal Government only to find out 
later that a deal is not a deal.
    I've heard from my friend and colleague Rep. Stewart and the local 
community that the draft plan, if implemented, would greatly reduce 
livestock grazing, dampen recreational opportunities, preclude the 
export of water to local municipalities, and even result in the 
potential introduction of the ESA-listed California Condor in the area, 
which also has grave land-use complications beyond what this community 
has already faced.
    These actions hurt people and the very livelihoods of this 
community. For example, BLM's preferred alternative does not include a 
northern transportation route--which has been an extremely high 
priority for this community for years. The transportation corridor is 
necessary to ease cross-town traffic and address projected growth in 
the area, yet it appears that BLM is unwilling to consider a proposed 
corridor that has been in the works for decades.
    What's worse, I have learned that BLM did not meaningfully consult 
with and engage members of this community, including local governments 
who are recognized as official cooperating agencies. NEPA, as well as 
language in the Washington County law, requires BLM to coordinate with 
local governments and the public as it prepares these plans. While BLM 
held several public listening sessions and meetings, this isn't 
reflected in BLM's draft plans.
    BLM has said that the final plans will reflect public comments, but 
based on BLM's track record up to this point we need more information, 
which is why we are here today.
    Federal land management agencies must be responsible to the needs 
of local communities across the United States, but this is even more 
important in places like St. George where the city is nearly surrounded 
by Federal land and the future of the county is so dependent on Federal 
land management.
    When a local government works so hard on legislation directing 
Federal land management, succinct and clear regulatory interpretation 
of the law by the Federal Government is critical. (After all, it is the 
law!)
    Unfortunately, prior to this hearing, this draft plan appeared 
symptomatic of this Administration's view of Federal lands in the West: 
Let's lock up as many acres as possible and use any means necessary to 
limit or end grazing, energy development, recreational access, and 
other multiple-uses. I have to stress that word ``multiple'' since I 
often have to remind the world and my colleagues (those not from the 
West), that Federal law (FLPMA) requires that BLM manage Federal lands 
under the principles of multiple-use and sustained yield.
    I look forward to hearing from today's witnesses and hope this 
hearing brings us a step closer to ensuring that BLM writes a plan that 
complies with both the spirit and letter of the Washington County 
public lands law, truly addresses the concerns of members of this 
community, and recognizes the importance that grazing, recreation and 
other multiple-use activities play in your economy and way of life.

                                 ______
                                 

    Mr. McClintock. Without objection, I now recognize 
Congressman Stewart for 5 minutes.

   STATEMENT OF THE HON. CHRIS STEWART, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF UTAH

    Mr. Stewart. I would like to say, Chairman, that I applaud 
your comments.
    And to Chairman Bishop, Chairman McClintock, and Ranking 
Member Lowenthal, again, thank you. Mr. Lowenthal, you said you 
had 30 inches of snow back home. We would invite you to winter 
here in St. George.
    Mr. Lowenthal. Thank you.
    Mr. Stewart. But we are afraid that you would stay, and we 
want to keep this a secret.
    Mr. Lowenthal. No longer a secret.
    Mr. Stewart. No longer a secret, you are exactly right.
    I welcome you all to the jewel of my district. In fact, I 
would say that this is in many ways one of the true jewels of 
the entire United States. My district here is home to Zion 
National Park, Dixie National Forest, Snow Canyon National 
Park, and many other beautiful, beautiful red rock cliffs and 
sand dunes.
    It is also home to the Red Cliffs National Conservation 
Area and the Beaver Dam Wash National Conservation Area, two 
conservation areas created by Congress, as has been alluded to 
earlier, in 2009 by the Omnibus Public Land Management Act. 
Congress' intent in passing that legislation and the BLM's 
implementation of that legislation is why we are here today.
    If I could divert from my comments and make a personal 
observation, I would say if there are two words that describe 
the process, I would say those two words are ``broken trust,'' 
because we had an agreement, and many of us feel as if that 
agreement has been violated.
    If you want to understand why so many people distrust the 
Federal Government, this is a good example of it, when they 
feel like they are not listened to, when they feel like their 
concerns are not addressed, when the process is tilted against 
them, and when they feel like there is no process for re-dress.
    The presumption is that I am a Republican, therefore I hate 
the environment and I want to destroy it. I think that is 
absurd. There is a reason that I choose to live in Utah. It is 
because I love Utah and I want to preserve it for my children, 
as well. Once again, there are so many who look at me and say 
you are a Republican and you want to destroy the land. I think 
it is nuts to start with that point of view.
    Washington County is an extraordinarily beautiful area. It 
is made up of over 1.5 million acres. Almost 84 percent of that 
is land that is in some form or fashion Federal or state owned. 
Nearly half of the county is under a form of restricted 
management. Compare that with the population that at one time 
was one of the fastest-growing populations in the entire 
country, 24 percent growth over 4 years, and you understand why 
we have to have a long-term planning document. The need for 
that becomes very clear.
    Because of that, 10 years ago Vision Dixie was created. It 
was a locally-driven project with state and Federal guidance, 
and it produced a comprehensive planning document for the 
county. In 2008, after 5 years of working and multiple edits, 
the Washington County Growth and Conservation Act became law.
    Now, part of that law required the BLM to develop a 
comprehensive plan for long-term management of the National 
Conservation Areas, and Congress gave specific instructions as 
to how that should be carried out. The proposals made in BLM's 
draft RMP constitute a departure from plain and clear language. 
It was so clear this law's intention, and frankly it is 
insulting the way this is being proposed.
    The law required the BLM to collaborate with state and 
local governments on a number of issues, and as the witnesses 
will demonstrate today, every one of their suggestions were put 
aside and not considered. As the local government leaders will 
tell you, every one of them were excluded from this process, 
and here are a few of the highlights of that outcome because 
they were excluded.
    The law prohibits the BLM from creating any new wilderness 
area. Yet, Alternative C calls for an inventory of wilderness, 
and the northern transportation route identified by the BLM in 
Alternative D seems to be written to maximize the impacts to 
the environment, clearing through 25 to 30 miles of the county. 
The county's preferred alternative, which impacts only 4 miles 
of the NCA, is not even included in any of the draft 
alternatives. This cannot possibly be the BLM's good-faith 
effort to present to the Secretary of the Interior for 
approval.
    Alternatives B, C, and D invent a Federal Multiple Species 
Management Area. First, there is no such thing as a Federal 
Multi-Species Management Area. Second, there are no known 
protected species in this area. The BLM acknowledges in the 
draft RMP that this area will be to protect critical habitat 
and migration corridors for mule deer, but the BLM has no 
jurisdiction over this game animal.
    And finally, this point: The preferred alternative appears 
to significantly reduce grazing allotments, despite a clear 
requirement that they must not be changed. As a kid who grew up 
farming and ranching, this one is particularly troubling to me, 
and I would emphasize that any attempt to encourage ranchers to 
surrender their grazing allotments or any allotments that are 
retired or withheld is in violation of the law.
    These are the things we are considering today.
    Thank you, Mr. Chairman, for your participation, and for 
those who are here as well. We look forward to a positive 
meeting. I yield back.
    Mr. McClintock. Thank you.
    That concludes the opening statements. We will now move to 
our testimony.
    We are under the House 5-minute rule. Written testimony 
will appear in full in the hearing record, but we would ask the 
witnesses to keep their oral statement to 5 minutes, as 
outlined in Committee Rule 4(a).
    We have some helpful timing lights to keep you within those 
parameters. The yellow light indicates that you have 1 minute 
remaining; the red light indicates you should stop. Why 5 
minutes? I think it is because studies have shown that is the 
maximum attention span of an average Member of Congress. But 
for whatever reason, we would ask you to keep within those 
parameters.
    With that, I now recognize Ms. Jenna Whitlock, the Acting 
State Director of the Utah Office, Bureau of Land Management, 
for 5 minutes.

   STATEMENT OF JENNA WHITLOCK, ACTING STATE DIRECTOR, UTAH 
    OFFICE, BUREAU OF LAND MANAGEMENT, SALT LAKE CITY, UTAH

    Ms. Whitlock. Good morning, Chairman McClintock, Chairman 
Bishop, members of the subcommittee, and Utah delegation. Thank 
you for the opportunity to discuss the BLM's planning process 
for the Beaver Dam Wash and Red Cliffs National Conservation 
Areas, and for the St. George Field Office, as called for by 
the Omnibus Public Land Management Act of 2009, also known as 
OPLMA.
    The BLM is committed to hearing from the public and 
engaging with cooperating governments and agencies as part of 
this planning process. I greatly appreciate the subcommittee's 
efforts to hold this hearing in St. George. As a Utahan whose 
family was among the earliest settlers of Sanpete County, just 
down the road, and having lived in the state for six 
generations, these land management issues are of great personal 
importance to me.
    Washington County, Utah, covers nearly 2,500 square miles 
and has been among the fastest growing counties in the country. 
This population increase has had direct impacts on public lands 
within the county and poses management challenges for a variety 
of reasons.
    For over 20 years, the BLM has worked closely with local, 
state, and Federal stakeholders to manage sensitive resources 
in a way that prevents conflicts and facilitates continued 
growth within the county.
    In passing OPLMA, Congress incorporated a number of public 
land bills, one of which established the Beaver Dam Wash and 
Red Cliffs NCA and included other major provisions affecting 
future land management in Washington County.
    According to the Act, the purpose of the Red Cliffs NCA is 
to conserve, protect, and enhance for the benefit and enjoyment 
of present and future generations the ecological, scenic, 
wildlife, recreational, cultural, historical, natural, 
educational, and scientific resources of the NCA, and to 
protect each threatened or endangered species located in the 
area.
    The Act further provides that the Secretary shall only 
allow uses in the NCA that would further the conservation 
purposes for which it was designated.
    My remarks today focus on the portions of OPLMA requiring 
the BLM to complete a comprehensive management plan for the Red 
Cliffs and Beaver Dam Wash NCAs, and to consider alternatives 
for a northern transportation corridor in the county. Other 
provisions of OPLMA are discussed in my written statement.
    As you well know, the BLM is preparing plans for the Beaver 
Dam Wash and Red Cliffs NCAs, and an amendment for the St. 
George Field Office plan. These three draft plans released on 
July 17, 2015 outlined a range of alternatives and offer a 
variety of proposed management objectives and actions for the 
public to review and provide input to the BLM.
    As I previously mentioned, OPLMA requires the BLM, in 
consultation with Washington County, the city of St. George, 
and other local governments, to identify one or more 
alternatives for a northern transportation route in the county 
as part of a comprehensive travel management plan. The BLM has 
included an alternative that would designate a new utility and 
transportation corridor within the Red Cliffs NCA, 
accommodating all of the potential alignments for a multi-lane 
road that Washington County provided to the BLM for the 
northern transportation route.
    During public scoping, the BLM received many written 
comments that suggested possible conflicts associated with the 
construction of a new multi-lane road through the Red Cliffs 
NCA. Others have urged the BLM to approve or otherwise 
establish a transportation route through the same conservation 
area.
    The BLM appreciates the input from all stakeholders and is 
in the process of reviewing all comments received.
    Thank you again for the opportunity to be here today to 
discuss the Red Cliffs, Beaver Dam Wash, and St. George 
planning process. The BLM looks forward to working with the 
subcommittee, state, tribal, and local partners on these 
important land management issues.
    As part of the planning process, the BLM is considering a 
broad range of potential resource management scenarios and 
provisions. No final decisions have been made, and the BLM will 
carefully consider all public comments and engage further with 
cooperating agencies before issuing final plans and amendments.
    I would be glad to answer any questions you may have.
    [The prepared statement of Ms. Whitlock follows:]
   Prepared Statement of Jenna Whitlock, Acting State Director, Utah 
   Office, Bureau of Land Management, U.S. Department of the Interior
    Thank you for the opportunity to discuss the Bureau of Land 
Management's (BLM's) development of Resource Management Plans (RMPs) 
for the Beaver Dam Wash and Red Cliffs National Conservation Areas and 
an RMP Amendment for the St. George Field Office, as called for by the 
Omnibus Public Land Management Act of 2009. The BLM is committed to 
hearing from the public and engaging with cooperating governments and 
agencies as part of this planning process. Consistent with this 
commitment, the BLM has held numerous formal cooperating agency 
meetings and many informal meetings to discuss topics of importance 
with the state of Utah, local counties and municipalities, area tribes, 
stakeholders, and Federal partners, and has sought to maximize 
opportunities for public input into the plans. Under the Federal Land 
Policy and Management Act and the National Environmental Policy Act 
(NEPA), the BLM has an obligation to consider a broad range of 
potential resource scenarios and management approaches--referred to as 
``alternatives''--under the principles of multiple use and sustained 
yield, recognizing that other provisions of law may set forth specific 
management requirements. No final decisions have been made, and the BLM 
will engage further with cooperating agencies and carefully consider 
all public comments on the draft plans before issuing final plans.
                               background
    Washington County, Utah, covers nearly 2,500 square miles, and has 
been among the fastest growing counties in the country, with a 
population increase of 52 percent between 2000 and 2010. Population 
growth has direct impacts on public lands within the county and poses 
management challenges for a variety of resources. For over 20 years, 
the BLM has worked closely with Washington County, the state of Utah, 
area tribes, and Federal agency partners to manage sensitive resources 
in a way that prevents conflicts and facilitates continued growth. As 
part of this effort, Washington County and the U.S. Fish and Wildlife 
Service (USFWS) undertook a collaborative public process, including 
meetings between private landowners and state and Federal land 
managers, to develop a Habitat Conservation Plan (HCP) that allowed for 
continued growth while ensuring protection of the threatened Mojave 
desert tortoise. This effort mirrored similar conservation efforts 
across the Mojave Desert, including the successful Clark County 
Multiple Species HCP that has facilitated sustainable growth in the Las 
Vegas Valley.

    The HCP Implementation Agreement, signed by Washington County, the 
state of Utah, the city of Ivins, the BLM, and the USFWS in February 
1996, established the Red Cliffs Desert Reserve, a multi-jurisdictional 
wildlife reserve of 61,022 acres largely composed of Federal and state 
lands. According to the HCP, uses within the Reserve are to be managed 
in a way that ``will place the desert tortoise as the highest 
priority,'' while allowing continued development of desert tortoise 
habitat outside of the Reserve. The HCP and associated Implementation 
Agreement provide a comprehensive approach to preserving and protecting 
desert tortoise habitat in Washington County, while at the same time 
allowing controlled growth and development in those areas of the county 
that are less essential to species recovery.

               omnibus public land management act of 2009
    In early 2009, Congress passed H.R. 146, the Omnibus Public Land 
Management Act (Public Law 111-11, hereafter referred to as ``OPLMA'' 
or ``the Act''), which included major provisions affecting future land 
management in Washington County, Utah. The Act established the Beaver 
Dam Wash and Red Cliffs National Conservation Areas (NCAs) to be 
managed by the BLM, and designated new wilderness areas to be managed 
by the BLM, Forest Service, and National Park Service. The Act directed 
the Secretary of the Interior (Secretary) to develop comprehensive 
management plans for both of the NCAs, including direction for the 
Secretary, through the BLM, to ``identify areas located in the County 
where biological conservation is a priority; and undertake activities 
to conserve and restore plant and animal species and natural 
communities within such areas.''

    The congressionally-designated boundary of the Red Cliffs NCA 
encompasses approximately 44,859 acres of public land managed by the 
BLM, including about 70 percent of the Red Cliffs Desert Reserve. The 
Act states that the purposes of the Red Cliffs NCA are ``to conserve, 
protect, and enhance for the benefit and enjoyment of present and 
future generations the ecological, scenic, wildlife, recreational, 
cultural, historical, natural, educational, and scientific resources'' 
of the NCA and to protect each threatened or endangered species located 
in the NCA. The Act further provides that the Secretary shall only 
allow uses of the NCA that would further the purposes for which it was 
designated.

    The Act also directed the BLM to execute a number of land actions, 
including the transfer of land into trust for the Shivwits Band of 
Paiute Indians and the conveyance of land for a variety of public 
purposes and uses, both of which the BLM completed in 2010.
                  st. george resource management plans

    Based on the congressional direction in OPLMA, the BLM is preparing 
RMPs and an associated Environmental Impact Statement (EIS) as required 
under NEPA for the Beaver Dam Wash and Red Cliffs NCAs. As required by 
OPLMA, the BLM is also preparing an amendment to the St. George Field 
Office RMP to identify and manage priority biological conservation 
areas and to facilitate the development of a comprehensive travel 
management plan. The BLM is currently under a Federal Court order to 
have final RMPs by June 30, 2016. On January 8, 2016, at the BLM's 
request, the United States Attorney's Office filed a motion with the 
court to extend the deadline for the final RMPs to December 31, 2016, 
to allow for additional time to complete further outreach and analysis. 
As of the date of this testimony, the court has not acted on the 
motion.

    On July 17, 2015, the BLM released the draft plans for a 90-day 
public review and comment period. The BLM later extended the comment 
period by an additional 30 days to ensure full public opportunity to 
comment. As required by statute, the draft plans outline a range of 
alternatives and offer a variety of proposed management objectives and 
actions. During the planning process, the BLM held nine formal 
cooperating agency meetings and many informal meetings to discuss 
topics of importance with the state of Utah, local counties, interested 
tribes, and partnering Federal agencies, and has allowed for maximum 
public input into the plan.

    Section 1977(b)(2) of OPLMA also requires the BLM to identify one 
or more alternatives for a ``northern transportation route in the 
County'' as part of a comprehensive travel management plan and in 
consultation with Washington County, the city of St. George, and other 
local governments. During the planning process for the NCAs and the 
amendment to the St. George RMP, the BLM received a formal request from 
Washington County to evaluate proposed alignments for a multi-lane road 
through the Red Cliffs NCA that could serve as this northern 
transportation route. Accordingly, the BLM has included an alternative 
that would designate a new utility and transportation corridor within 
the Red Cliffs NCA, accommodating all of the potential alignments that 
Washington County provided to the BLM for the northern transportation 
route.

    During public scoping, the BLM received many written comments that 
suggested possible conflicts associated with the construction of a new 
multi-lane road through the Red Cliffs NCA, including the risk of 
undermining the 1996 HCP Implementation Agreement and the possible 
invalidation of Washington County's associated incidental take permit, 
which could negatively affect future growth in the county. In light of 
these potentially significant conflicts, the BLM's preferred 
alternative would retain existing designated right-of-way corridors 
along State Route 18 and Interstate 15, but would not designate a new 
utility and transportation corridor within the Red Cliffs NCA. This 
preferred alternative is consistent with the HCP and with the direction 
expressed by Congress in its establishment of the Red Cliffs NCA.

    Since release of the draft plan, the BLM has heard from some 
stakeholders who believe that the Washington County Growth and 
Conservation Act, which was passed as part of OPLMA, requires the BLM 
to approve or otherwise establish a transportation route through the 
Red Cliffs NCA. However, a plain reading of the statute (OPLMA section 
1977[b][2]) does not direct the BLM to do this. Instead, the Act 
prohibits such a route through the NCA unless it furthers one of the 
purposes for which the NCA was established.
Comprehensive Travel & Transportation Management Plan

    OPLMA also requires the BLM, in consultation with appropriate 
Federal agencies and state, tribal, and local governments and after 
opportunity for public comment, to develop a comprehensive travel 
management plan for BLM-administered land in Washington County. In 
addition, the BLM must also ensure that the travel management plan 
contains a map that depicts the ``High Desert Off-Highway Vehicle 
Trail'' and must designate a system of areas, roads, and trails for 
mechanical and motorized use.

    BLM off-highway vehicle (OHV) area designations provide the 
framework within which individual route designations are made. The OHV 
area designations in the 1999 St. George Field Office RMP are 
inconsistent with current BLM Travel and Transportation Management 
policy. Each of the proposed alternatives in the draft plans (other 
than the ``no action'' alternative) would update OHV area designations 
and provide options to facilitate development of the required travel 
management plan.

    Following final approval of the two NCA RMPs and the amendment to 
the St. George Field Office RMP, the BLM will prepare a Washington 
County Comprehensive Travel and Transportation Management Plan and a 
supporting Environmental Assessment in cooperation with the state of 
Utah and Washington County, and with full public participation and 
review. In addition to addressing OHV use and the High Desert OHV 
Trail, the travel management plan will include consideration of a 
northern transportation route within Washington County, as required by 
OPLMA.
Lands with Wilderness Characteristics

    The BLM remains subject to the requirement of section 201 of FLPMA 
to ``maintain on a continuing basis an inventory of all public lands 
and their resource and other values.'' Just as wildlife habitat, visual 
resources, conventional and renewable energy production, grazing, 
mining, OHV use, hunting, and myriad other land uses and resources are 
considered in the development of an RMP, lands with wilderness 
characteristics must also be considered during the planning process. In 
order to fulfill our statutory commitments, the BLM has inventoried 
lands with wilderness characteristics within the planning areas and is 
analyzing the impact of the various alternatives in the EIS on these 
lands, and one alternative includes proposed prescriptions that would 
protect lands with wilderness characteristics. Consideration of these 
alternatives allows the BLM to complete a comprehensive plan under 
section 202 of FLPMA, and to address the interests and concerns of the 
wide array of public land users.
                               conclusion
    The BLM is committed to working with state, tribal, and local 
partners as we consider land management plan provisions for the Beaver 
Dam Wash and Red Cliffs NCAs and our St. George Field Office. As 
discussed above, the BLM is considering a broad range of potential 
resource management scenarios and provisions. No final decisions have 
been made, and the BLM will carefully consider all public comments and 
engage further with cooperating agencies before issuing final plans and 
amendments. Thank you for the opportunity to provide this testimony, 
and I am happy to answer any questions.

                                 ______
                                 

    Mr. McClintock. Thank you.
    Our next witness, Ms. Kathleen Clarke, the Director of the 
Utah Public Lands Policy Coordinating Office, is recognized for 
5 minutes.

 STATEMENT OF KATHLEEN CLARKE, DIRECTOR, STATE OF UTAH PUBLIC 
     LANDS POLICY COORDINATING OFFICE, SALT LAKE CITY, UTAH

    Ms. Clarke. Chairman McClintock, Chairman Bishop, and 
members of the subcommittee, thank you. I am honored to be here 
today and appreciate this opportunity.
    I have been involved in public land and natural resource 
management for about 35 years. Five of those years I had the 
privilege of serving as the Director of the BLM in Washington, 
DC. One of the primary objectives that I pursued was to 
encourage our BLM folks at all levels to engage with their 
partners, their neighbors, and local communities.
    BLM is a checkerboard kind of a landscape, and often you 
are surrounded on four sides by someone who may own that 
property. It is essential that this agency work together with 
them, and I encourage that because I am a firm believer that 
that kind of interaction and negotiation brings about rigorous 
conversations, debate, delicate negotiations, and arrives at a 
balance point that is based on trust, not something that 
everyone is thrilled with, but something that gets the best of 
what you both want.
    I believe that that is exactly what the Washington County 
lands bill did, and it was an honest effort.
    I was at the BLM when this bill was passed, and I have to 
tell you it was not uncommon that I would get a phone call from 
someone saying, ``I don't know what Washington County is doing, 
they are giving everything away.'' And I said, ``It is not my 
decision, I am not in charge of this action. This is a 
legislative action being driven by the legislature, by our 
Congressmen, and it will not succeed unless it gets enough 
votes to pass the entire House, the Senate, and gets the 
President's signature.'' And this bill did that.
    That ought to be end of the story. What is a law for if it 
isn't to be honored, respected, and obeyed? What are agreements 
for if there is no honor behind them and no real commitment 
behind them?
    The provisions in the bill are designed to enhance the 
quality of life in the St. George area. This quality of life 
emanates from the pristine environment, absolutely, but also 
from the dynamic and growing economy, both of which are 
addressed by provisions in the lands bill.
    This bill protected thousands of acres of wilderness in 15 
different wilderness areas. It established two new conservation 
areas, but it committed the remaining BLM land in the county to 
other public uses, and it made sure that planning could move 
forward for the ever-important northern transportation route. 
This trust, these trade-offs, that is the backbone of this 
special legislation.
    I want to just speak for a moment about the northern 
transportation corridor. It was a key part of the compromise 
that allowed this land bill to come into being. The city of St. 
George, the county, and other local interests wanted to plan 
for a northern transportation corridor, and it is part of the 
reason why they were willing to support the creation of new 
wilderness areas and new conservation areas, because they felt 
comfortable that they were going to get something in return 
that they needed. And again, that is what the law says.
    To me, at this point the debate should be over. The bill 
has been signed and put into law, and the time for negotiations 
about so much of this has passed. Those were hard-fought 
negotiations, and as I suggested, not everyone got everything 
they wanted.
    I think as the witnesses testify, they will speak to 
numerous other concerns they have with this bill. But my major 
one is the integrity, and it is of an agency bothering to read 
the law. I think sometimes they default to their handbooks and 
their policy guidelines or to the way they have already done 
things. Maybe they were just sent to Utah from Virginia and 
they don't know anything about this law. Maybe they don't 
bother to check it out. They just know what the wilderness 
manual says and that is where they are going.
    My encouragement is for the agency to dig back in, to take 
a look at the law, and to respect the agreements that were made 
in that law and honor them. Thank you.
    [The prepared statement of Ms. Clarke follows:]
  Prepared Statement of Kathleen Clarke, Director, Utah Public Lands 
                       Policy Coordinating Office
                              introduction
    Chairman, members of the committee; I am honored to be here and 
thank you for this opportunity.
    In my experience, the best public land conservation always happens 
at the ground level with many stakeholders coming together to identify 
issues and solve problems. Only through a process of inclusion and 
transparency can resource plans be crafted that achieve a true balance 
between conservation, recreation, and responsible development of 
natural resources and that produce durable results.
    Subtitle O of the 2009 Omnibus Public Land Management Act, also 
known as the Washington County lands bill (hereinafter ``lands bill'') 
is a true example of such an effort. The lands bill brought people 
together from across the political spectrum: environmentalists, 
ranchers, private landowners, developers, recreationists, Republicans, 
and Democrats. Ultimately the compromise won bipartisan support in a 
divided Congress and was signed by President Obama.
    The provisions in the lands bill are designed to enhance the 
enviable quality of life found in the St. George area. This quality of 
life stems from the pristine environment and the dynamic economy, both 
of which are enriched by provisions in the lands bill. The lands bill 
protected thousands of acres of wilderness in 15 different wilderness 
areas. It established two National Conservation Areas. It committed the 
remaining BLM land in the county to other public uses. It protected 
historical uses such as grazing in the Beaver Dam Wash. And it made 
sure that planning for the critically important northern transportation 
route could proceed to the next stage.
    The backbone of special land management legislation such as the 
lands bill is formed through compromise, the negotiation, the balancing 
and the mutual trust that brings such an agreement together.
    When a piece of special legislation is passed by the Congress, it 
may direct an agency to do something outside of the ordinary, something 
different than what is stated in their policies and guidance documents. 
Examples of this arise in the lands bill we are considering at this 
hearing.
    The Draft Resource Management Plan for Beaver Dam Wash National 
Conservation Area and Red Cliffs National Conservation Area 
(hereinafter ``Draft RMP'') now under review by the BLM fails to honor 
key provisions of the lands bill--provisions that were foundational to 
passage of the bill and are crucially important to Washington County 
today.
    Both the state and the county signed up early to be cooperating 
agencies and also requested full coordination as mandated by law in the 
development of the Draft RMP's alternatives. Regrettably, they were 
left out of critical deliberations and were not invited to the table to 
discuss the challenges the BLM wrestled with or the decisions that 
followed. When the alternatives in the Draft RMP were released, the 
county was stunned, finding that many of the promises in the lands bill 
had no place in Alternative B, the BLM's ``Preferred Alternative.''
    In its official comments, the state sought to have the BLM initiate 
a Supplemental Environmental Impact Statement to allow the state and 
the county to have their full rights to participation and partnership 
with the BLM. Although the BLM appears to not be headed in that 
direction, they did grant an extension of time for comments, and more 
importantly began a series of in-depth meetings with county and state 
officials to consider their many issues and concerns with the Draft 
RMP. These meetings have been productive and thanks are due to Field 
Office Manager Brian Tritle for his hard work in facilitating essential 
dialog and cooperation between the parties.
                     northern transportation route
    Of major concern is the matter of the northern transportation 
route. The northern transportation route is a key part of the 
compromise that allowed the lands bill to exist. The city of St. 
George, the county, and other local interests wanted to plan for a 
northern transportation route, and were willing to make compromises to 
get there. It's part of why local interests supported the creation of 
15 different wilderness areas and two NCAs. The idea was to balance 
conservation in some areas so that planning for the route could 
proceed.
    The lands bill clearly states that the BLM must identify one or 
more potential routes for a northern transportation route in the 
county's travel management plan. The RMP should therefore include a 
right-of-way corridor within which the BLM can identify a specific 
route in the upcoming travel management plan, because the travel 
management plan will be constrained by the RMP. Unfortunately, there is 
significant disparity between what the lands bill says and what the BLM 
has proposed.
    Alternative B, the ``Preferred Alternative,'' and Alternative C in 
the Draft RMP do not designate any right-of-way corridors within which 
a northern transportation route could be built. Only Alternative D 
designates a right-of-way corridor for a northern transportation route.
    Notwithstanding, the lands bill states that a route must be 
identified in the travel management plan. If BLM selects Alternative B 
or Alternative C from the Draft RMP, there will not be any right-of-way 
corridors available for the route in the travel management plan. The 
Draft RMP should have included a right-of-way corridor under every 
alternative so that planning for the route can proceed as directed by 
law.
    We have heard from the BLM that a travel management plan is not the 
right planning document to identify a route for a highway; that BLM 
regulations do not provide for route identification in travel 
management planning. We have even heard from the BLM that Congress made 
a mistake by calling for the identification of the route in the travel 
management plan.
    But BLM regulations can and must be adjusted to follow the will of 
Congress because Federal law trumps agency regulations. If route 
identification does not usually happen during travel management 
planning, the BLM must make a one-time adjustment to their travel 
management planning process.
    Designating a right-of-way corridor in the RMP will not authorize 
construction of a highway. It will not jeopardize any endangered 
species. The designation will only involve drawing lines on a map so 
that planning for the northern transportation route can proceed to the 
travel management plan stage. The northern transportation route itself 
will require its own approval process and its own NEPA documentation. 
But at this point BLM is required by law to allow the planning process 
move to the next level.
                         wilderness study areas
    The BLM has also disregarded the express intent of Congress with 
regard to wilderness study areas. The lands bill, which designated over 
250,000 acres of the county as wilderness, clearly says that all 
remaining BLM land in the county has been adequately studied for 
wilderness designation and should be released from wilderness 
consideration under FLPMA Section 603(c). This was another important 
compromise made by local interest groups in Washington County when 
agreeing to 15 new wilderness areas under the lands bill.
    Despite this direct statement in the statute, under Alternative C 
the BLM proposed to manage over 18,000 acres as lands with wilderness 
characteristics.
    Proposals like this, even when they are only found in one 
alternative, foster distrust in the Federal Government and dismay among 
local residents.
                   insufficient range of alternatives
    The purpose of a Draft RMP is for the BLM to provide the public and 
cooperating agencies with a range of management alternatives, and to 
then solicit feedback on which alternatives are preferable. However, 
there are many instances in the Draft RMP where there is no range of 
alternatives; where all three alternatives contain identical proposals. 
This is not how NEPA is supposed to work, and it renders local input 
meaningless if there is only one option presented in a Draft RMP.
    One example is the BLM's proposal for California Condors. 
Alternatives B, C, and D all proposed to ``authorize the 
reintroduction, translocation, and supplemental releases of California 
condors.'' There is no variety in the alternatives for this very 
significant management action, nothing from which cooperating agencies 
or BLM decisionmakers can make a selection. The Draft RMP should have 
included three distinct proposals for each alternative, with meaningful 
differences between each.
    Another example is from the water resources section of the Draft 
RMP. Every alternative states that the BLM will ``not authorize land 
uses that would export water from the NCA.'' Again the BLM proposes a 
management action with serious consequences for the public and 
cooperating agencies, but does not provide any range of alternatives. 
Provisions such as this ignore the role of cooperating agencies, as if 
a decision has already been made. Other examples of proposals without a 
sufficient range of alternatives are found throughout the Draft RMP. 
Cooperation with state and local government requires real alternatives 
for each management action and substantive discussions between parties 
over which alternatives are best.
          removal of ``cooperation and coordination'' language
    Let me mention briefly an issue I find both troubling and 
perplexing. The existing RMP for the St. George Field Office frequently 
says that the BLM should cooperate, collaborate, or coordinate with 
local governments.
    This language about has been removed from Alternatives B, C, and D 
of the Draft RMP. Cooperation with state and local government is 
fundamental to good stewardship and conservation. While laws and 
regulations directing the BLM to cooperate with state and local 
government will still be valid regardless of the text of the RMP, we 
request that the BLM include language about cooperation, collaboration, 
and coordination in the new RMP.
                               conclusion
    I appreciate the efforts of the people of Washington County to work 
together toward good stewardship of their public lands, and for the 
efforts of Congress to craft balanced and individualized land 
conservation laws in Utah. I urge continuing cooperation between the 
BLM and local government officials as the BLM moves to finalize these 
important land management plans.

    Thank you.

                                 ______
                                 

    Mr. McClintock. Thank you very much.
    Our next witness, Mr. Paul Van Dam, the former Executive 
Director of Citizens for Dixie's Future, and a former Utah 
Attorney General from Ivins, Utah, is recognized for 5 minutes.

STATEMENT OF PAUL VAN DAM, FORMER EXECUTIVE DIRECTOR, CITIZENS 
  FOR DIXIE'S FUTURE; FORMER ATTORNEY GENERAL, STATE OF UTAH, 
                          IVINS, UTAH

    Mr. Van Dam. Thank you, Mr. Chairman. Chairman Bishop, it 
is a pleasure to be here today, and it is particularly a 
pleasure for me to look out into this room and see my kind of 
people. Thank you for coming. I know you cannot applaud, but I 
can hear it.
    I have been involved with Utah my whole life, born here, 
raised here, bought property in this county in the 1970s; I 
love the state, and I love this land.
    But we have a unique situation in Utah that many do not 
want to accept, and that is the majority of it belongs to all 
Americans, not just Utahans.
    I had a unique opportunity as the Attorney General of the 
state to see how government runs on the state level and how it 
meshes with the Federal Government, and there are real 
discrepancies, real differences between the attitudes of 
Utahans and the attitudes of other people in this country.
    This state was born back in the 1840s from people running 
from other people, and other states driving them out. When 
Congress finally got a nose full of what the Mormons were doing 
with their polygamy, they sent an army out. And what did Utah 
do? It sent a counter group back to waylay that army, and they 
had to change a lot of things. There have been hard feelings 
among these people in the state of Utah and the Federal 
Government for as long as this state has existed, and they have 
now come forward even more today.
    We have a state that has just spent $14 million to hire a 
law firm to see if they can get their land back, land which 
never belonged to anybody but all the people of the country. 
So, when this BLM thing came up I thought, well, this is so 
strange. And when I hear the Chairman in his introductory 
remarks basically dissing and being disrespectful of the BLM 
and believing everything that he has heard from one side and 
not the other side, I want to tell you, Mr. Chairman, I have 
dealt with the BLM for a long time. My experiences are 
positive.
    They have accommodated me. They have met with me. They have 
answered my questions. I have been to many, many of their 
presentations, and I can tell you that they are engaged and 
they have no desire to thwart the people of this county.
    We had a sagebrush rebellion some years ago, and now we are 
doing it again. I see some of those here who are very much 
involved in trying to get Utahans worked up about the fact that 
we are entitled to the land in our state.
    Well, if those were the facts, I might join them, but they 
are not. Most of this state, 67 percent of it, belongs to 
everybody in the United States, and the BLM has the very 
difficult job of preserving it in a way that is meaningful.
    Having grown up in Salt Lake City, I can tell you that that 
area, when I was born, which was 78 years ago, was pretty 
pristine. We had open foothills. We had trails. We had open 
ground. And we still had an air problem. But everything is now 
full, and everything is now polluted, and I simply do not want 
to see this county follow suit.
    There are those who would simply do that. Businesses would 
like to fill every nook and cranny in this county with a house, 
with a business, with something. I am not against growth, but I 
think smart growth is something that is very important.
    A few years ago we had a process called Vision Dixie, which 
I assume many of you were involved in. Vision Dixie cost the 
county half a million dollars and took a year and a half or 
more. It came out with a plan, and the plan was to grow within 
the confines of our city. The plan was to keep our natural wild 
places open and usable. The plan, Vision Dixie, has kind of 
gone away, and I am sorry.
    Now, we talk about the northern transportation corridor, 
and I have very few seconds left, but I can tell you, having 
talked to Bill Mader, who was the Administrator back in the 
1990s and who drafted the actual document, says no highway was 
contemplated or allowed. Then it was made into a national area 
for our tortoises, and we want to run a six-lane highway 
through there that dumps out on Red Hills Parkway, the small 
road that now exists up there. To what advantage? So I can get 
over to Ivins in about 3 minutes less time than before, and in 
the process essentially wipe out what is an amazing area and a 
tortoise reserve?
    My time is up. I have not had time to talk about most of 
the things in detail I would like you to know. But let me just 
say in closing that there is a difficulty in understanding one 
another, and those of you who are here know what I am talking 
about. I ran for County Commission a couple of years ago and I 
found out I am not going to be elected here. I am a Democrat.
    Thank you very much, and hold on to your hats.
    [The prepared statement of Mr. Van Dam follows:]
 Prepared Statement of R. Paul Van Dam, Former Attorney General, State 
                                of Utah
    As a life-long Utah resident, property owner in and current 
resident of Washington County, Utah, former Utah Attorney General and 
an American, public lands are of great importance to me. I appreciate 
being able to provide testimony at this public hearing convened by the 
House Natural Resource Committee's Subcommittee on Federal Lands and be 
given time to speak on behalf of those in our county and others who 
support our public lands and value their preservation now and into the 
future for generations to come.
    Given my legal career and having served as executive director for 
Washington County's only local grassroots conservation organization, 
Citizens for Dixie's Future (CDF), I am familiar with laws dealing with 
our county's public land. I was heavily involved in the 2006 Washington 
County Growth and Conservation Bills offered by Utah's Senator Robert 
Bennett and Congressman Jim Matheson. When I became CDF's executive 
director in 2008, the effort by Senator Bennett and Congressman 
Matheson had been met with vigorous opposition by local citizens, 
resulting in the formation of CDF and ultimately the initiation of the 
Vision Dixie process by Washington County Commissioners to deal with 
the unrest created by the legislation. To their surprise, the Vision 
Dixie process revealed great support in this county for our public 
lands and reluctance to spin off large portions to Washington County or 
build a Northern Corridor through the Red Cliffs Desert Reserve, now 
part of which is an NCA.
    The 2006 bill version was soundly rejected and resulted in a 
revised version being included in the 2009 Omnibus Land Act. In 2008, I 
was directly involved in conversations with Congressman Matheson's 
office leading up to the final version for the 2009 legislation. They 
were unwilling to completely relinquish the idea of their preferred 
Northern Corridor but language was revised in the 2009 legislation to 
provide leeway in that regard. We now are dealing with the results of 
that and arguing whether the BLM has lived up to the letter of the law 
described in the 2009 Omnibus Public Land Management Act (OPLMA), 
Subtitle O. I believe they have.
    Much of the disagreement pertaining to this contentious road deals 
with what has been on the county and city transportation plans for 
decades according to county leaders. That may be the case, but 
according to my conversation with Dr. William Mader who served as the 
first administrator of the Red Cliffs Desert Reserve (Reserve), 
established in 1996, and administered the Habitat Conservation Plan 
(HCP), there was no plan for a road, and it was clear to county and 
city officials involved in the process and BLM, U.S. Fish and Wildlife 
Service and Utah's Division of Wildlife Resources that was the case. 
Straightening of Skyline Drive (also known as City Creek by some) was 
discussed to deal with traffic, but certainly no road through the heart 
of the Reserve. There was some early discussion but it was made clear 
that if they wanted the HCP that would allow development to ensue in 
over 300,000 acres of Washington County, there would be no road. Dr. 
Mader was part of all official discussions, meetings and decisions in 
this regard. If side conversations occurred implying something 
different, they were not part of the official decisionmaking process or 
record.
    When Dr. Mader and I spoke, I asked him about the Washington 
Parkway Study done in 2012 in which a biologist working with Utah's 
Department of Transportation and the Dixie Metropolitan Planning 
Organization, our local transportation planning organization, was 
contracted to review the proposed Northern Corridor preferred route, 
also called the Washington Parkway, and show how, if at all, a road 
could be constructed to help the tortoise population. Dr. Mader, being 
a trained biologist himself and former head of the Reserve, stated 
unequivocally that the road would not help the situation. The tunnels 
suggested by UDOT/DixieMPO's biologist would not provide the necessary 
access needed. The additional traffic, along with the noise and 
pollution that would result, would not be conducive to helping the 
tortoise population which has declined by around 50 percent since 
2005's summer fire season.

    To substantiate Dr. Mader's concerns, I offer the following from a 
December 19, 2012 letter from the Desert Tortoise Council pertaining to 
the Washington Parkway Study (Study) conducted by UDOT and DixieMPO:

        ``But for'' this project, none of the threats listed in the 
        table in the executive summary (pages iii and iv of the Study) 
        would affect the Reserve. Therefore, the best way to eliminate 
        the following threats is to prohibit the construction of a new 
        highway through the Reserve: Direct mortality, construction 
        activities, habitat fragmentation, habitat loss, small reserve/
        population size, disturbance, spread of exotic and invasive 
        plants, increased risk of fire, increased predation, disease, 
        increased access to remote areas, and cumulative threats. In 
        Section 7.9 on page 51, the Study fails to indicate that a new 
        roadway through the Reserve would be a new source of road-
        killed animals that would serve to subsidize ravens and 
        coyotes.

        The Council takes exception to the following statement: ``This 
        study illustrates that a comprehensive approach to roadway 
        design and associated management can ameliorate many existing 
        threats, contribute to improving conditions, and provide future 
        management options for the tortoise on the Reserve.'' First of 
        all, there are no ``improving conditions'' in a population that 
        has declined by almost half since the HCP was implemented and 
        the Reserve established. It is extremely misleading to claim 
        that the project itself, which is probably immitigable, will 
        somehow benefit tortoise conservation elsewhere; such 
        statements redirect the readers' attention away from the 
        impacts associated with the proposed project by promising 
        conservation elsewhere. Since this conservation is already 
        guaranteed by an HCP with its adaptive management contingency 
        plans, there is no need for the ``additional'' conservation 
        proposed by this new project.

    Dr. Mader's concerns and those of the Desert Tortoise Council are 
not the only reasons for rejecting the Northern Corridor route 
preferred by our county and city leaders. The county's own 2015 
Regional Transportation Plan clearly states that roads will not solve 
this county's traffic problems. The report also points out that the 
majority of this county's growth will be in the southern and 
southeastern areas of this county meaning that a Northern Corridor 
would support a very small population of this county at an expense of 
around $100 million. The transportation plan also shows that we have a 
deficiency in funding for others roads that are more essential to more 
populated areas and shows that the road would save a mere 1.7 minutes 
from travel time.
    As a resident of Ivins, a town in the northwestern part of 
Washington County, conceivably I could benefit from a Northern 
Corridor, but to have 1.7 minutes shaved from my travel time while 
turning our backs on an obligation made in good faith in the 1990s and 
challenging to the Red Cliffs Desert Reserve and Red Cliffs NCA, an 
area that citizens and visitors have come to love and cherish, makes no 
sense to me.
    The argument is made that traffic on St. George Boulevard and Red 
Hills Parkway will not be able to handle the coming traffic, but then 
the transportation report shows that congestion will not be eliminated 
on these roads even with a Northern Corridor. And, amazingly, the 
preferred Northern Corridor (aka Washington Parkway) is designed to 
move traffic onto Red Hills Parkway near the Highway 18 intersection, 
which seems to completely undermine the purpose for a road. In fact, 
even now, if I desire to avoid St. George Boulevard and other mid-town 
traffic, I can take I-15 to Dixie Drive and Dixie Drive to Snow Canyon 
Parkway and home.

    While local leaders attest to the need for a road to move traffic, 
a 2007 UDOT study concerning a proposed Northern Corridor dealt with 
the county's preferred route (Red Hills Parkway to I-15 at MP 13 in a 
chapter titled: ``Alternatives Considered but Eliminated from Further 
Consideration.'' Here are excerpts from that report:

        Under this alternative, traffic conditions would also slightly 
        improve on St. George Boulevard but would slightly deteriorate 
        on Bluff Street.

        However, traffic demand along St. George Boulevard would still 
        exceed the road's capacity, so the effect may be minimal.

        The Northern Corridor Alternative would not meet the objective 
        of minimizing impacts to the reserve.

        According to a letter from USFWS, ``such a road would 
        compromise the commitments on which the Washington County 
        Habitat Conservation Plan was based, is likely to compromise 
        the biological integrity of the Upper Virgin Recovery Unit 
        (already the smallest recovery unit), and may result in an 
        adverse modification of designated critical habitat.''

    While others may not take heed to what Dr. Mader and biologists 
from the Desert Tortoise Council say about the effects of the proposed, 
preferred Northern Corridor route, or consider the admonitions provided 
in transportation studies, perhaps this official statement by Senator 
Bob Bennett will carry more weight from the U.S. Senate hearing record 
of April 22, 2008 on S. 2834:

        ``Congressman Matheson and I have made significant changes to 
        the previous proposal. We have permanently protected large 
        amounts of biologically significant public land in Washington 
        County, including additional wilderness and a new National 
        Conservation Area. We have removed the corridor designations 
        for the Lake Powell Pipeline Corridor and the Northern Corridor 
        that bisected the Red Cliffs Desert Reserve'' p. 8 (emphasis 
        added)

    What's needed is for our transportation planners to go back to the 
drawing board and devise ways to deal with our projected traffic needs 
without undermining agreements that were made at an earlier time. 
County-wide coordination of all general plan updates and major rezoning 
approvals would improve transportation planning. All signatories to the 
HCP need to uphold the agreement and do their general plan updates and 
transportation planning with the Northern Corridor off the table.
    Although the proposed Northern Corridor (aka Washington Parkway) is 
a major sticking point in the BLM's 2015 RMP, other issues are 
pertinent to this discussion and bear mentioning. Of critical concern 
by our leaders at all government levels is their contention that the 
BLM has failed to live up to the actions designated in the 2009 OPLMA. 
Given my reading of the OPLMA language and my legal career, I disagree. 
The following is the direction given to the BLM--representatives for 
the Secretary of Interior--by the OPLMA:

(2) USES.--The Secretary shall only allow uses of the National 
Conservation Area that the Secretary determines would further a purpose 
described in subsection (a), which provides:

(a) PURPOSES.--The purposes of this section are--

(1) to conserve, protect, and enhance for the benefit and enjoyment of 
present and future generations the ecological, scenic, wildlife, 
recreational, cultural, historical, natural, educational, and 
scientific resources of the National Conservation Area; and

(2) to protect each species that is--

(A) located in the National Conservation Area; and

(B) listed as a threatened or endangered species on the list of 
threatened species or the list of endangered species published under 
section 4(c)(1) of the Endangered Species Act of 1973 (16 U.S.C. 
1533(c)(1)).

    Pertaining to the Northern Corridor issue the 2009 bill states:

    (A) in consultation with appropriate Federal agencies, state, 
tribal, and local governmental entities (including the County and St. 
George City, Utah), and the public, identify one or more alternatives 
for a northern transportation route in the County.

    The BLM has identified four options for a road in their Alternative 
D of the RMP. What they have not done is support Alternative D as their 
preferred alternative because it conflicts with the directive of 
protecting the species within the NCA. OPLMA does not direct them to 
``prefer'' an alternative; it only directs that they ``identify'' 
alternatives.
    For leaders such as Utah's Senator Orrin Hatch to assert that the 
BLM has gone against the ``intent'' of OPLMA is without merit given 
what Senator Bob Bennett's 2008 official comments show. If we are to 
legislate by back room deals and not by what is in official testimony 
and in legislation itself, we will surely be arguing over this forever.
    My personal experience with the BLM has shown them to be open and 
willing to work with citizens at all levels, if those citizens take the 
time and make the effort to approach them in a collaborative manner. I 
am not here to assert that BLM does everything perfectly or that some 
review of their systems is not warranted. But I believe they have lived 
up to OPLMA's requirements perhaps as well as is humanly possible. They 
have been asked to include the HCP and other relevant laws and 
agreements in their decisions, laws and agreements that often don't sit 
well with political leaders.
    Given the requirements of the HCP to protect the Red Cliffs Desert 
Reserve's flora and fauna while they've had pressure for a road that 
would go against that has placed them in a very difficult position. 
Also, the requirements of FLPMA have presented challenges, and yet, 
these are laws and agreements that have been enacted and agreed to by 
previous congressional actions and local leaders. Are we to completely 
upend the apple cart and challenge all decisions made by those who came 
before us?
    Local leaders, county and city, assert they have not been included 
in the decisionmaking process leading up to the RMP and yet they have 
known, or should have known, since 2009 that this plan was in progress. 
They have had every opportunity to be involved, and in fact, I believe 
they have been involved but simply have not achieved what they want; 
hence this hearing has been convened to help force their issues.
    Washington County leaders have complained that the RMP was too 
extensive for proper review. However, the BLM initiated their planning 
process by publicizing a Notice of Intent in 2010, which began a 60-day 
scoping period for the public to assist BLM, and that included local 
officials, too. Meeting dates, times and locations for four public 
meetings were announced and details for public comments provided. The 
information was also published in newspapers in the planning area at 
the same time. This gave the public, which includes local leaders, time 
to participate and communicate their needs to the BLM. If local leaders 
feel they should have been paid deference and been given special 
attention, that is not borne out in the OPLMA.
    The RMP was issued for the initial 90-day comment period in July 
2015, and the BLM held open house meetings to answer citizens' 
questions. Additionally, the regional BLM office is always open to 
receive citizens and interested persons, including the mayors if they 
are truly interested in getting information and having a two-way 
conversation.
    Had local leaders truly wanted to be involved in the RMP planning 
process, they had plenty of opportunity. They had access to OPLMA 
details and what issues the BLM would address. Had officials been 
concerned, they could have begun reviewing those needs and identified 
areas that would be particularly problematic for their citizens and 
started developing preferred plans to communicate to the BLM.
    Additionally, city and county leaders have monthly access to 
Federal agency representatives through the Habitat Conservation 
Advisory Committee (HCAC) that oversees the Reserve/NCA. Two mayors sit 
on the committee, St. George city manager is on the committee, which 
also includes representatives from the BLM, USFWS and Utah's Division 
of Wildlife Resources, and Washington County Commissioner Alan Gardner 
attends monthly meetings which are preceded by lunch for committee 
members and any citizens who might want to participate. There are also 
ad hoc work meetings and field trips during which leaders and Federal/
state agency representative interact.
    So, where does the public stand in this process? How do they feel 
about our public lands and the efforts underway to wrest control from 
the Federal Government and place under state control where leaders such 
as those who are challenging the BLM's RMP can have their way? A 
nationwide poll done by the CREDO wireless network challenging Senator 
Hatch's S. 1783 that would force the preferred Northern Corridor 
through Red Cliffs NCA has garnered over 126,000 signatures by those 
across America who challenge the idea of politicians making decisions 
that should be left to those with more biological background. Even 
informal local online polls have shown that 64 percent of participating 
Washington County residents oppose the idea of this controversial road.
    On a more general level regarding America's public lands, a recent 
poll by the Colorado College State of the Rockies Project 
``Conservation in the West Poll'' showed support for keeping America's 
public land under Federal control rather than relinquishing to the 
states. The college's Web site states:

        Despite an uptick in anti-public lands rhetoric from militant 
        extremists, Colorado College's recently released State of the 
        Rockies Project Conservation in the West Poll shows strong 
        public support for efforts to protect and maintain national 
        public lands.

        https://www.coloradocollege.edu/newsevents/newsroom/2016-
        conservation-poll-finds-support-for-public-lands#.Vp_OtZorLGg

    From the college's January 2016 press release about the poll, key 
findings from the poll include:

    <bullet> Ahead of the 2016 elections, 75 percent of respondents say 
            issues involving public lands, waters, and wildlife are an 
            important factor in deciding whether to support an elected 
            public official, compared to other issues like health care 
            and education.

    <bullet> 83 percent of respondents believe the drought is a serious 
            issue and in Colorado River Basin states (CO, NV, NM & UT) 
            strong majorities favor using the current water supply more 
            wisely over diverting more water from rivers in less 
            populated areas.

    <bullet> 75 percent of respondents support the renewal of the Land 
            and Water Conservation Fund.

    <bullet> 80 percent of respondents believe the U.S. Forest Service 
            should be allowed to treat the largest and most expensive 
            wildfires as natural disasters in order to have access to 
            emergency disaster funding.

    <bullet> 72 percent of respondents say national public lands, such 
            as national forests, national monuments, or wildlife 
            refuges help their state economy.

    Many of our local county and city leaders assert that growth will 
be hampered by BLM's RMP decisions. Few details have been presented to 
uphold this assertion. The BLM's St. George Field Office and the 
county, through the Habitat Conservation Advisory Committee (HCAC), 
have been managing these lands for many years. The HCP administered by 
the HCAC is currently up for renewal after its 20-year life. Washington 
County was considered the fastest growing county in the Nation leading 
up to the Great Recession in spite of these public lands. In fact, 
these public lands draw visitors from around the world to enjoy this 
area and provide recreational opportunities to residents. To assert 
that decisions by the BLM regarding introduction of the California 
Condor, restrictions on some grazing and OHV opportunities, along with 
the myriad other concerns will challenge this area's growth seems 
foolish.

    Although some citizens and leaders believe they know a great deal 
about public lands, the BLM and forest service inspect them, evaluate 
them, report on them and are in a position to have a fully developed 
factual base for their opinions. These activities are accomplished by 
trained, qualified personnel. Much of my testimony has concentrated on 
the Red Cliffs NCA and the proposed road through the Reserve and NCA 
because of the challenges that area faces. Tortoise population presence 
and decline is well documented. As noted in the RMP, the animals have 
been studied since the 1930 as confirmed by the RMP's reference on page 
399 pertaining to the Beaver Dam Wash NCA:

        Woodbury and Hardy (1948, 187) described their study area 
        between 1930 and 1935 as consisting of 1,200 acres that 
        represented the ``home area of a semi-isolated colony of 
        approximately 300 tortoises.'' From these data, they concluded 
        there were 2,000 or more tortoises in the estimated 70 square 
        mile area of the Slope, and described the area as being 
        potentially good habitat but for the impacts to the native 
        vegetation communities as a direct result of overgrazing by 
        sheep and other livestock.

    So, populations in the Red Cliffs NCA, Reserve and Beaver Dam Wash 
NCA are and have been at risk for some time. Social trails through the 
Red Cliffs NCA have increased as our population has increased. 
Providing additional access via a road will not help this situation. So 
far the Mojave desert tortoise's listing has not been elevated from 
threatened to endangered. However, with the decline in population any 
other efforts to undermine those numbers could be seen as reason to 
elevate that listing, there providing additional demands on management, 
which I'm sure our local leaders would not want.
    There is much more that can be addressed given the extensive nature 
of the BLM's RMP and the many obligations they have regarding 
management. I've hit on what I consider the high points that have 
resulted in this hearing being called. I appreciate having the 
opportunity to participate and share my thoughts and information on 
this important topic not only to our area but nationally, as well.

                                 ______
                                 

    Mr. McClintock. Thank you.
    We will now hear from our next witness, the Mayor of St. 
George, Utah, Mr. Jon Pike, for 5 minutes.

     STATEMENT OF JON PIKE, MAYOR, CITY OF ST. GEORGE, UTAH

    Mr. Pike. Mr. Chairman and other Members of Congress, thank 
you for being here.
    I wish to explain four major problems with the draft 
management plans.
    First, the city of St. George was not invited to 
participate in the planning process.
    Second, the northern transportation route that Congress 
provided for in the Public Lands Management Act is being 
excluded from any serious consideration in the current plan.
    Third, language in the current draft calls for the BLM to 
obtain water rights and restrict the exportation of water from 
the National Conservation Areas.
    Fourth, utility development protocols that were crafted for 
the desert tortoise habitat conservation plan are not being 
included in the NCA management in the current draft.
    Please let me elaborate on these points one at a time so I 
can explain why these four points are so concerning to me as 
the mayor of the largest city in Washington County.
    I not only represent my city today, but I believe I also 
represent the mayors and city councils of other municipalities 
in the county who would be affected by these RMPs.
    First, the planning process. BLM's local office spent 6 
years right here in St. George drafting a Resource Management 
Plan that will affect the resources of St. George City and 
other local municipalities that we will depend on in the 
future, without consulting the governments of these local 
municipalities.
    During that planning process, the city government was never 
invited to help form alternatives or to comment on the 
alternatives that were being drafted until they were released 
for public comment.
    Second, water rights. The easiest problem on this list to 
fix would have been the water rights language. Any threat to 
water rights is a huge problem for St. George. Thirty-seven 
percent of the city's water is either directly or indirectly 
affected by these two National Conservation Areas. A simple 
conversation could have resulted in a better understanding of 
the status of water in the NCAs, but BLM proposes in their 
current draft that they, first, pursue acquisition of ground 
and surface water rights; second, do not authorize uses that 
would export water from the NCAs; and third, ensure that the 
BLM obtains water rights on all inventory point water sources.
    All three of these goals are troublesome when water is a 
scarce resource, and all three are probably contrary to Utah 
water law. All water in the area is allocated, so obtaining 
water rights on inventory point sources would require a 
purchase of water rights from an existing user. Water rights 
include the right to access water. So, BLM cannot refuse to 
authorize the export of water from the NCAs by those who 
legally hold rights to the water.
    The BLM cannot hold water rights without putting them to 
beneficial use, as defined by Utah water law. A few 
conversations could have prevented water goals that are unwise 
and illegal.
    Next, utility development protocols (UDPs). Importing the 
UDPs would also be simple. The UDPs were developed 
cooperatively between Federal and local governments, as well as 
utility companies. During the planning for the desert tortoise 
management, a balance was struck between the need to protect 
the species and the need to provide basic utilities for 
residents. When Congress included language in the Land Act that 
existing protocols were not prohibited in the NCAs, the BLM 
should have imported the UDPs directly into the Resource 
Management Plans. Instead, they made a declaration in Chapter 1 
that the UDPs were inadequate and created an immediate conflict 
between managing the NCAs and survival of the local economy.
    Last, the BLM did not take seriously the directive from 
Congress to study one or more alternatives for a northern 
transportation route. St. George needs a northern route to move 
cars from east to west without forcing all traffic onto city 
surface streets that are not designed for the volume and that 
would be crippled by the year 2040. The city and the county 
have been planning for a route for decades. A route through the 
NCA would serve 3,000 driving hours in the city and carry 
32,000 cars per day, and could be built in an environmentally 
sensitive way.
    Congress recognized the need for a northern route in the 
Land Act. Rather than faithfully execute the Land Act as it was 
passed by Congress and signed by the President, the BLM tried 
to get around studying a route. Several possible routes that 
had been studied by local governments were considered in 
Alternative D, not the preferred alternative.
    Alternative D studied the impacts of the routes in 
aggregate, not individually, which greatly exaggerated the 
possible impacts of a road. Since Congress directed the 
Secretary of the Interior to study one or more routes in the 
travel management plan, all alternatives in the RMPs should 
have contained a corridor for a northern route. No honest 
effort was made to study realistic routes.
    For these reasons, I feel that the BLM has failed in its 
duty to faithfully execute the laws enacted by Congress. 
Instead, the BLM has placed ideology above responsibility to 
work with local government and the will of Congress. Local 
governments cannot plan for the future if they are unable to 
rely on Federal land managers to be good partners. Thank you.
    [The prepared statement of Mr. Pike follows:]
     Prepared Statement of Mayor Jon Pike, City of St. George, Utah
    From the perspective of the city of St. George, the draft Resource 
Management Plans (RMPs) the BLM released for public comment in 2015 
were unacceptable for several reasons that all boil down to a lack of 
concern for the local economy and local residents. Had the writers of 
the document made a good faith effort to coordinate with local 
governments, the draft RMPs could have been planning tools that helped 
guide resource management in the county. As they were written, without 
any local input, they are horribly faulty and pose a possible threat to 
the local economy.
    Being the mayor of the largest city in Washington County, I would 
like to have a friendly working relationship with the local Federal 
land managers. Had I been invited to give input before the draft was 
released to the general public, I could have explained why some of the 
decisions in the draft RMPs would kill the growth of my city. Instead, 
I am left to fight to change the draft that is the product of 6 years 
of work. For 6 years, BLM planners worked on this draft in an office in 
St. George without ever talking to me or the previous mayor about the 
management of the National Conservation Area (NCA) that borders my 
city.

    The laundry list of complaints is long, but the major problems from 
the city's perspective are:

  1.  The city of St George was excluded (along with all other 
            municipalities in the county) from participating in the 
            formulation of alternatives in the RMPs.

  2.  The northern transportation route that was provided for in the 
            Omnibus Public Lands Management Act of 2009 \1\ (OPLMA) is 
            obviously being handled in a way that ensures it will not 
            be built. St. George and surrounding areas need the 
            transportation route for future growth, and the route was 
            specifically bargained for in the negotiations that led to 
            OPLMA.
---------------------------------------------------------------------------
    \1\ OPLMA Sec 1977 (2).

  3.  Utility Development Protocols that were worked out for the desert 
            tortoise habitat conservation plan (HCP) that would allow 
            the tortoise and the economy to thrive side-by-side were 
            left out of the RMP.\2\ St. George utilities need to be 
            allowed to run through the NCA and maintenance on existing 
            utilities has to be allowed because of the topography of 
            the area.
---------------------------------------------------------------------------
    \2\ See HCP management plan and incidental take permit.

  4.  The water rights language in the RMPs threatens growth and 
            development in two ways. First it calls for the BLM 
            obtaining water rights, and second it says the BLM will not 
            authorize land uses that transfer water from the NCAs.\3\ 
            All of the water in the area is allocated. BLM cannot 
            obtain water rights without getting them from someone who 
            currently holds them. St. George has major water supplies 
            under the Red Cliffs NCA and plans to move water across NCA 
            land to supply parts of the city that need additional 
            water.
---------------------------------------------------------------------------
    \3\ Page 54 DOI-BLM-UT-C030-2015-1-EIS.

---------------------------------------------------------------------------
1. Cooperation

    When the desert tortoise was listed as a threatened species, St. 
George worked with the county, other municipalities, and Federal 
partners to find solutions that would allow the economy to continue to 
grow while the tortoise also continued to thrive in the area. As a 
result of that process, the Red Cliffs Desert Reserve was created, the 
HCP adopted by the interested parties, and eventually, the Red Cliffs 
NCA was designated. In light of the history of mutual respect and 
cooperation that went in to the management of the reserve before the 
creation of the reserve, the city of St. George expected to be treated 
like a full partner in the creation of the management plan. It came as 
a shock when the RMPs were released for public comment and seemed to 
take a stance that was adversarial to the best interests of the local 
economy. After all of the negotiation and buy-in from stakeholders that 
led to OPLMA, the city was operating under the assumption that the law 
would be followed in a way that reflected the intent of Congress in 
passing OPLMA: to settle land use questions in a cooperative way.
    Had the city, or any of the other municipalities, been invited to 
participate in the planning process, certain misunderstandings could 
have been avoided. For example, city attorneys could have helped BLM 
see that the water rights language included in the RMPs was contrary to 
Utah water law. As another example, if the language from the RMPs 
proposing introduction of California Condors under the full protection 
of the Endangered Species Act had been shown to the city during the 
planning process, the BLM could have been informed that an existing 
agreement between the USFWS and the local governments would prevent any 
such introduction. Undoubtedly, several other objectionable points 
could have been sorted out through communication and inclusion prior to 
finishing the draft. As it is, the city is left to comment with the 
public on issues that Congress already spoke to in OPLMA.
2. Northern Corridor

    The northern transportation route was specifically called for in 
OPLMA. Congress said: ``In developing the travel management plan, the 
secretary shall[,] in consultation with appropriate Federal agencies, 
state, tribal and local governmental entities (including the County and 
City of St. George City, Utah), and the public, identify one or more 
alternatives for a northern transportation route in the county.'' \4\ 
Not only was St. George City not consulted, as required by law, but the 
northern transportation route was only allowed for in Alternative D of 
the RMP.\5\
---------------------------------------------------------------------------
    \4\ OPLMA Sec 1977 (2).
    \5\ Pages 278-285 DOI-BLM-UT-C030-2015-1-EIS.
---------------------------------------------------------------------------
    Alternative B, the preferred alternative had no allowance for a 
northern transportation route of any kind. Alternative D, the only 
alternative with any consideration of a route, was written in such a 
way that in exaggerated the impact of the route and made selecting that 
alternative virtually impossible. Impacts of a route were analyzed as 
if six different routes would all be built simultaneously and as if all 
six routes would be multi-lane highways with amenities. Furthermore, 
the route impacts were combined with possible utility corridors which 
added to the exaggeration of the potential impacts. Alternative 
formulation made it clear that BLM was not trying to be true to 
Congress' directive to study route for a northern corridor. Instead, 
BLM was trying to kill the idea of a route through tortoise habitat.
    St. George is geographically bound by the spectacular rock 
formations that make the area attractive to visitors and by the rivers 
that helped shape the landscape. Transportation planning in St. George 
requires creatively finding routes that serve the needs of the public 
within the confines of the geography that makes it such a wonderful 
place to live. Current surface streets will be inadequate to keep up 
with future population growth. A northern route is needed to move 
traffic between the municipalities east and west of St. George. Without 
a northern route, all traffic will be forced to drive through the city 
of St. George on downtown streets that were not designed to be 
parkways. Not only would the traffic be too heavy for the existing 
streets, but it would require more idling of vehicles and more 
pollution-causing congestion.
    As a solution to the traffic problems the city will face in the 
future, the northern route has been in the planning stages for more 
than 20 years. During the HCP process, the city was clear that even if 
the area that is now the Red Cliffs NCA became a reserve, the city 
would still need a route from east to west. The NCA is currently 
bisected form north to south by a fenced road. The county is willing to 
decommission the north/south road to mitigate the impacts of an east/
west northern route. The existing road is old and was not designed to 
be tortoise friendly. The northern route could be designed to allow 
tortoises to cross underneath it and keep tortoises off the pavement. 
The northern route would also have a shorter span through the NCA than 
the current road has. Biologically it would be a net gain for 
tortoises.
    Although St. George and county partners have been willing to meet, 
plan, and negotiate with Federal land managers and wildlife officials, 
the draft RMP was written without any input from the city. In light of 
the cooperation that led to the HCP and the clear mandate from Congress 
to work with the city of St. George, both the lack of cooperation that 
went into the draft and the slanted alternatives in the draft were an 
unpleasant to city officials. If an alternative is selected in the 
final RMP and the subsequent record of decision that does not allow for 
a northern route, then in a year when the local BLM office is working 
on a travel management plan, they will be in violation of OPLMA. 
Congress stated in OPLMA that the Secretary of Interior was to consider 
one or more routes for a northern corridor at the travel management 
stage.\6\
---------------------------------------------------------------------------
    \6\ OPLMA Sec 1977 (2).
---------------------------------------------------------------------------
    So far, the local BLM office has held fast to their refusal to 
soften their stance on the northern corridor. As an explanation for 
their refusal to include a corridor, the local BLM office keeps telling 
the city, county, and state that a plan that includes a corridor will 
get a negative biological opinion from the USFWS. The USFWS is under 
the same obligation from Congress to find one or more alternatives for 
a northern route. Congress didn't direct the BLM to study a route, 
Congress directed the Secretary of Interior to study one or more route. 
The USFWS is also under the Secretary of Interior. By pointing fingers 
at each other, they are both avoiding following through on the statute 
that Congress passed and the President signed. No amount of finger 
pointing will change the plain language of the law that requires the 
Secretary of Interior to study one or more route.
3. Water Rights

    Any attempt by a Federal agency to obtain water rights in a basin 
that is fully allocated \7\ looks like a Federal over-reach to locals. 
In this arid region, water is our lifeblood and the limiting factor to 
growth and development. Water planning is serious business in southern 
Utah. When language in the BLM draft RMPs suggests that they will be 
filing on all point sources within the NCA boundaries, buying up water 
rights, and disallowing land uses that export water from the NCAs, the 
city of St. George sits up and takes notice.\8\ Water rights and the 
allocation of water are the purview of the state of Utah. Federal land 
management agencies should have no part in determining how water is 
allocated or in obtaining an already scarce resource.
---------------------------------------------------------------------------
    \7\ According to the Utah Division of Water Rights Web site, area 
81, which covers nearly all of Washington County is considered fully 
allocated.
    \8\ Page 54 DOI-BLM-UT-C030-2015-1-EIS.
---------------------------------------------------------------------------
    Under the Red Cliffs NCA is a Navajo sandstone aquifer that 
provides about 10 percent of the city of St. George's municipal water 
supply. If that water is not allowed to leave to the NCA, the city will 
be seriously short of water. Existing water lines that cross the NCAs 
will need to be maintained over the life of the NCA. Additionally, the 
city owns water rights north of the NCA that require water to be piped 
across the NCA to supply residents with clean drinking water. If 
activities that move water across the NCAs to get them from point of 
diversion to point of use are disallowed, as much as 37 percent of the 
city's water supply will be affected. The Washington County Water 
Conservancy District partners with municipalities to supply water, and 
Federal land has to be part of that system. We are surrounded and 
inundated with Federal land. State law requires access to water rights. 
The only way for the residents of St. George to adequately access 
municipal water is to include public land in the process. In the past, 
St. George has been able to work with BLM to ensure a stable water 
supply for our residents. We would like to see that relationship 
continue and improve.
    The local office has stated that the intention of the language in 
the draft RMP was never to make a big water grab. If this is true, it 
is another argument for bringing the cities and other local governments 
into the planning process early, as required by Federal law. If those 
who depend so heavily on the water supply had been asked to offer 
opinions on the water language before the draft came out, the BLM would 
have known how upsetting the water language was. Local governments and 
the Washington County Water Conservancy District could have advised BLM 
on the conflicts between their plan and state water law. The problem 
could have been solved before it was released to the public.
4. Utility Development Protocols

    Similarly to the water and transportation issues, utility corridors 
are limited by the geography of the area, but utilities are necessary 
for the growth and economy of the city. Because those involved in 
creating the HCP understood that, utility development protocols (UDPs) 
were worked out and included in the HCP agreement. The agreed upon 
protocols were intended to be included in the NCAs. Without the ability 
to maintain existing utilities and to get new ones to the city, growth 
will be stunted and the economy will suffer.
    Protecting tortoise habitat does not have to stifle the local 
economy. Balance can be found between the need to protect species and 
the need to bring utilities in to the residents of St. George. The UDPs 
in the HCP strike that balance. During the process of drafting OPLMA, 
locals asked for the UDPs to be included in the law, so language was 
inserted that allowed for UDPs to be imported into NCA management. The 
draft RMPs dismiss the UDPs because they don't adequately address 
mitigation of impacts to other values in the NCAs besides desert 
tortoises.\9\ With one paragraph, the RMPs dismiss the work that went 
into making plans for protecting both the tortoises and the local 
residents.
---------------------------------------------------------------------------
    \9\ Page 32 DOI-BLM-UT-C030-2015-1-EIS.
---------------------------------------------------------------------------
    St. George City would like to see the local BLM office comply with: 
(1) Federal laws requiring consistency with local plans, (2) OPLMAs 
directive to cooperate with the city in finding a northern 
transportation route, and (3) OPLMAs spirit of cooperative management. 
From the city's perspective, Congress' intent was largely ignored in 
favor of a conservation ideology that disfavors population growth and 
economy.

                                 ______
                                 

    Mr. McClintock. Thank you very much, Mr. Mayor.
    Our next witness, the Chairman of the Washington County 
Commission, Mr. Alan Gardner, is recognized for 5 minutes.

  STATEMENT OF ALAN GARDNER, COMMISSIONER, WASHINGTON COUNTY, 
                              UTAH

    Mr. Gardner. Thank you, Mr. Chairman. My name is Alan 
Gardner. I am in my 20th year as a Washington County 
Commissioner and a fifth-generation resident of Washington 
County.
    Today I want to focus on one key issue, the breakdown of 
the RMP process. Because of flaws in the process, Washington 
County has invested considerable time and resources into fixing 
a problem that never should have occurred. Washington County 
was held up by the Department of the Interior as the poster 
child for cooperating with Federal agencies and special 
interest groups because of our work on the 2009 Lands Bill. 
Secretary Salazar even flew to Washington County to celebrate 
our success.
    I personally participated in meetings and negotiations 
between local governments and special interest groups, 
including SUWA, the Wilderness Society, and the Sierra Club, to 
determine how we could live together and manage our resources 
cooperatively.
    In exchange for reassurances that certain activities would 
be continued, we agreed to twice the amount of wilderness that 
BLM recommended, and that much area again in NCAs, over 165 
miles of wild and scenic rivers, and we gave up a critical 
reservoir site.
    That is why I was surprised when the draft came out and did 
not honor those negotiations. Even though we signed an MOU to 
be a cooperating agency, we were invited only three times to 
help write a plan that BLM worked on for 6 years. In that same 
6-year period, we were updated a handful of times but never 
allowed to really participate, despite our repeated requests.
    Our comments on the administrative draft were ignored. Once 
the current draft was released, we realized our comments would 
not guide the plans. So, we started using whatever resources we 
had to try to change the alternatives. During that period, we 
spent hundreds of hours reading and analyzing the 1,100-page 
draft. We strategized with the County Attorney's office. We met 
with the mayors, county departments, and the Water Conservancy 
District. We involved the Governor's Public Lands Office. We 
solicited substantive comments from the municipalities. We 
appealed to the public to comment through a form on the 
county's Web site. We held a press conference. We met with BLM 
Director Neil Kornze. We contacted our congressional 
delegation, and we started meeting regularly with local BLM 
staff to hash out concerns.
    The resources the county has spent on this process are 
costly in both time and money. Luckily, Washington County had 
the resources to use; most counties do not. Counties should not 
have to go through the time and expense we went through just to 
get a Federal agency to follow the laws passed by Congress.

    The substantive problems with the draft RMPs appear to be a 
result of an ideology within BLM that includes these six 
attitudes:
      Error one, Congress should have read BLM's manual before 
drafting legislation;
      Error two, conservation lands should be treated like 
national parks;
      Error three, BLM knows better than locals how resources 
should be managed;
      Error four, state resources like water and wildlife can 
better be managed by BLM;
      Error five, the purpose of the NCA--to conserve, protect, 
and enhance habitat--outweighs all other language from the same 
statute;
      And last, Error six, fear of lawsuits from special 
interest groups outweighs the will and plain language of 
Congress.

    Somewhere between the passage of the Lands Bill and the 
draft RMPs, the BLM forgot why Secretary Salazar praised our 
cooperative efforts. When local governments, special interest 
groups, and Federal partners come together to solve resource 
problems and then Congress embodies those agreements in 
statute, Federal agencies should faithfully enact those 
agreements.
    Through our recent regular meetings with the local BLM 
office, they have signaled a willingness to work with the 
county to solve most major issues, except the northern 
transportation corridor. In the future, Washington County would 
like to see more counties work out resource problems without 
having to fight to get them implemented. Cooperation makes more 
sense than costly litigation, but it only works if all parties 
honor that bargain.
    Thank you for the opportunity to testify today.
    [The prepared statement of Mr. Gardner follows:]
 Prepared Statement of Commissioner Alan Gardner, Washington  County, 
                                  Utah
    The current draft RMP for the National Conservation Areas (NCAs) in 
Washington County doesn't live up to the expectations set by the 
Washington County portion of the Omnibus Public Land Management Act of 
2009 (OPLMA or lands bill). From my perspective as a Washington County 
Commissioner of 20 years, the process of drafting the RMP was deeply 
flawed. Secretary of Interior Salazar came to St. George to celebrate 
the fact that Washington County helped set a precedent for cooperation 
in the process that led to the passage of OPLMA. It is disappointing 
that the BLM didn't continue in the spirit of cooperation when drafting 
the alternative management plans necessary due to the bill. Washington 
County signed an MOU as a cooperating agency with the BLM but was only 
given three opportunities to meet in planning and a handful of updates 
over the course of the 6-year planning effort--even though the county 
requested involvement in formulating alternatives several times. More 
importantly, I am not aware of any impact that county input had on the 
BLM's preferred alternative plan--our concerns were simply ignored in 
drafting the alternative plans. Through months of effort and a huge 
investment of county resources since the draft was released, most of 
the flaws in the draft RMP are likely to be fixed, but the process 
should have been much different for a cooperating agency.
1. History of Cooperation

    I have been involved in the planning and compromise that resulted 
in the lands bill for years, and I have a deep working knowledge of the 
intent of the compromises. When the desert tortoise was listed and it 
became obvious that growth in the county would be impacted, the county 
started working on an agreement to manage tortoise habitat in a way 
that allowed the area to grow. I attended all of the desert tortoise 
habitat conservation plan (HCP) committee meetings as an interested 
citizen before I was sworn in as a commissioner around the time the 
implementation agreement was signed. I was also the lead commissioner 
on OPLMA. In a spirit of cooperation, Washington County brought 
together a diverse committee of 19 entities, including the Southern 
Utah Wilderness Alliance (SUWA), the Wilderness Society, and the Sierra 
Club. The Vision Dixie planning process (a local effort to plan future 
development) was completed, which took an additional 2 years. More than 
5 years of cooperation and compromise were spent preparing the bill 
that became law in 2009. OPLMA was intended to balance the interests of 
all the entities who wanted to participate.
    In light of all of that background of cooperation and with a 
legally enacted lands bill, the county fully expected the RMPs to 
reflect the spirit of that effort and the will of Congress in passing 
OPLMA. I was disappointed when the administrative draft was released to 
us in 2014 to see so many differences between the RMPs and the intent 
of the lands bill. The county submitted written comments stating its 
concerns, but received no response from the BLM. In fact, some of the 
things the county objected to were made even more prominent in the 
current draft while some new, objectionable ideas were added. With the 
public release of the draft RMP, it became clear that BLM was not going 
to cooperate with the county to make the RMPs reflect the spirit of 
cooperation that led to the creation of the NCAs.
2. Examples of Problematic Ideas
    To illustrate the tone of the RMPs, here are a few examples:

    <bullet> The lands bill specifically states that the public land in 
            the County administered by the BLM has been adequately 
            studied for Wilderness designation and is no longer subject 
            to section 603, but the draft RMP called for inventory of 
            wilderness. OPLMA created more wilderness than the BLM 
            originally identified. (88,501 acres of WSAs with 66,178 
            acres of that proposed for designation resulted in 131,932 
            acres of designated wilderness on BLM land and additional 
            Wilderness in Zion National Park.) The establishment of 
            Wilderness was balanced with the agreement that no more 
            wilderness would be created.

    <bullet> The HCP contains a utility management plan that includes 
            corridors for existing electric power lines to be 
            maintained and protocol for new lines to be built. It 
            creates similar protocols for existing water wells and 
            water lines to be maintained and for new development. We 
            were told that these plans couldn't be adopted directly by 
            the bill because there had to be a planning process. 
            However special language was added in the bill so that 
            these plans could be adopted as part of that process. Sec 
            1974 d3 ``the Secretary may incorporate any provision of--
            (A) the habitat conservation plan: (B) the Resource 
            Management Plan; and (C) the public use plan.'' Despite 
            that language from Congress, the draft RMP dismissed the 
            protocols with one line on page 32 that says they are 
            inadequate for species habitat.

    <bullet> Washington County's position, when negotiating the lands 
            bill, was that if there was to be any consideration of 
            reducing grazing, the Lands Bill would not be introduced 
            because the grazers already took a 10 week loss of grazing 
            time to protect tortoises. We were told that the language 
            used in the bill was the standard language and would allow 
            grazing to continue at current levels: ``Sec 1975 (4) The 
            grazing of livestock in the National Conservation Area 
            established before the date of enactment of this Act, shall 
            be permitted to continue--(A) subject to--(i) such 
            reasonable regulations, policies, and practices as the; 
            Secretary considers necessary . . .'' Contrary to the 
            negotiations the County understood to be embodied in the 
            lands bill, every alternative in the draft RMP cuts grazing 
            and provides for retirement of grazing permits.

    <bullet> The Northern Corridor has been on Washington County's 
            master plan for well over 20 years and was identified as 
            necessary by a large majority of the public in the Vision 
            Dixie planning effort. Because of the growing number of 
            people in Washington County and the rugged geography of 
            Washington County, i.e., river and hill locations, the 
            Northern Corridor is essential for traffic movement in the 
            next decade. With the realization that the exact route of 
            the Northern Corridor would have to be studied in great 
            detail, we agreed to OPLMA stating in Sec 1977 b2A that the 
            Secretary of Interior was to, ``in consultation with 
            appropriate Federal agencies, state, tribal and local 
            governmental entities (including the County and St George 
            City, Utah) and the public, identify one (1) or more 
            alternatives for a northern transportation route in the 
            County.'' The draft RMP only has a corridor in one 
            alternative, and it is analyzed in a way that makes that 
            alternative highly unlikely to be selected.

    <bullet> The RMP proposes the introduction of the California Condor 
            under the full protection of the Endangered Species Act 
            (ESA). This violates an agreement between the U.S. Fish and 
            Wildlife Service and the county regarding an experimental 
            condor population in southern Utah. Additionally, the 
            introduction would have an adverse impact on hunting, 
            agriculture and general use of the area if adopted. The 
            last thing we need is a ``tortoise with wings.''

    <bullet> The draft RMP proposed an 80,000 acre multi-species 
            management area to manage mule deer habitat. In the 
            administrative draft, the management area was proposed in 
            Alternative C only, and the county objected to it. In the 
            current draft, it is in Alternatives B, C, and D. BLM says 
            it is required by a line in OPLMA requiring the secretary 
            to identify areas of biological priority. Surely the intent 
            of Congress in a land designation bill was not hint to BLM 
            to make a huge land designation, bigger than either NCA 
            designated by Congress through OPLMA--especially a land 
            designation to manage habitat for a state game species. 
            Nobody has ever heard of a multi-species management area. 
            It is a made up designation that infringes on state 
            jurisdiction over wildlife.

    <bullet> Throughout all the objectionable sections in the draft 
            RMPs, language that calls for coordination and cooperation 
            with state, county, and local governments has been 
            eliminated (in alternatives B, C, and D). Cooperation and 
            coordination are required by FLPMA and by BLM policy, and 
            should be included in the plan. Cooperation should be 
            especially important because Washington County signed an 
            agreement with the BLM to be a cooperating agency on the 
            RMPs. Washington County has worked long and hard to remain 
            a reasonable partner. We expect to be treated with the same 
            reasonableness by the BLM. These draft plans and the 
            process by which they have come about do not live up to 
            those expectations.

    Counties shouldn't have to hire new attorneys, start public 
campaigns, and write to Congress just to get an RMP that reflects the 
tone of a duly enacted lands bill. Most counties in Utah don't have the 
resources to pull off the effort we have expended in this process. In 
the months since the release of the draft RMPs, the BLM has started 
cooperating with the county through regular meetings in which we 
discuss the flaws in the RMPs and possible solutions. I deeply 
appreciate the efforts that have been made by the local office to fix 
the plans. What concerns me is the effort we had to go to just to get 
the plans to reflect the compromises that we worked on for years. Those 
compromises were made law by Congress and the President, but the local 
BLM office did not defer to them when making decisions.
3. Current Status of Cooperation and Problematic Ideas

    Even when we started meeting regularly with BLM to discuss the 
problems with the plan, the attitude we regularly encountered was that 
one line from OPLMA was being used to outweigh all of the other 
carefully crafted compromises. In the lands bill, the purpose of the 
NCAs is ``to conserve, protect, and enhance for the benefit and 
enjoyment of present and future generations the ecological, scenic, 
wildlife, recreational, cultural, historic, natural, educational, and 
scientific resources of the National Conservation Area; and to protect 
each species that is located in the National Conservation Area; and 
listed as a threatened or endangered species . . .'' That language, 
``conserve, protect, and enhance,'' was used to justify not integrating 
the utility development protocols from the HCP into the plans, 
resisting the northern corridor, and reducing cattle grazing. Even 
though the same act of Congress that created the NCAs and defined their 
purpose called for implementation of the protocols, cooperatively 
identifying alternatives for a northern transportation route, and a 
continuation of grazing, BLM interpreted one clause as an excuse to 
ignore other sections. Early in the process of our weekly meetings, we 
were regularly told that conservation lands are different than other 
BLM lands and should be managed more like national parks than multiple-
use lands.
    Another troubling attitude that we kept running into when we 
started talking to the local BLM office about what was in the draft 
RMPs was that Congress should have read BLM manuals before passing the 
lands bill. Manuals were repeatedly cited as justification for not 
following the spirit of the lands bill. In one meeting between the 
state, county, St. George City, and the local BLM office, BLM employees 
said they could not follow through on studying routes for a northern 
corridor because ``Congress screwed up'' when calling for routes to be 
studied during BLM's travel planning process. When the BLM was pushed 
as to why the draft RMPs call for wilderness inventory when Congress 
released all undesignated acres in Washington County from wilderness 
study, local employees cited BLM manuals that say a release by Congress 
will be given ``strong consideration.'' BLM policy appears to be that 
BLM will decide whether Congress makes the right decision by passing a 
lands bill and then manage accordingly.
    Yet another troubling aspect of our otherwise beneficial meetings 
with the BLM has been the explanations offered for why the range of 
alternatives are so skewed. The only difference between resources with 
alternatives and those without a range of alternatives appears to be 
the threat of special interest lawsuits. On issues like grazing, where 
Congress said that grazing was to continue, the range of alternatives 
offered all reduced grazing. When questioned about the departure from 
the intent of the lands bill, the local planners told the county that 
without a range of grazing alternatives, including a no grazing 
alternative, the BLM would get sued by special interest groups. The 
threat of suit by special interest groups was more persuasive to the 
BLM planners that the language Congress passed. On the other hand, when 
asked why no range existed on other issues the county objected to, such 
as water rights language, condor introduction, and the proposed multi-
species management unit, the planners said they felt like they were on 
solid ground with those decisions.
4. Conclusion

    In summary, Washington County would like to work cooperatively with 
BLM to manage resources like we have in the past, but the current draft 
RMP undermines that effort. Most of the objectionable sections of the 
current draft RMPs appear to be a result of either ignorance on the 
part of the BLM planners that could easily have been avoided through 
early and frequent communication with the local governments or an 
attitude on the part of the BLM staff that they know better than 
Congress and local governments, including cooperating agency local 
governments, how land should be managed. Washington County would like 
to fix the attitudes and misunderstandings and move forward with 
implementing the lands bill. In counties, like Washington County, with 
high percentages of public land, land management agencies and local 
governments are most effective when we manage resources together.
    Washington County is truly grateful for the effort that is 
currently being put forth by local BLM to work with county officials to 
fix flaws in the draft RMPs and even hopeful that it will be 
successful. If that process continues to satisfactorily address the 
concerns of the county, then Washington County can once again lead the 
way in displaying how cooperation with Federal land managers can be 
successful.

                                 ______
                                 

    Mr. McClintock. Thank you very much.
    That concludes our oral testimony.
    The Chair would ask unanimous consent that a statement by 
the Utah Farm Bureau be entered in the Committee Record. 
Without objection, so ordered.

    [The prepared statement submitted for the record by the 
Utah Farm Bureau follows:]
  Prepared Statement of Randy N. Parker, Chief Executive Officer, on 
               behalf of the Utah Farm Bureau Federation

    The Utah Farm Bureau Federation, representing more than 28,000 
member families located in each of Utah's 29 counties, appreciates the 
opportunity to submit comments to the House Subcommittee on Federal 
Lands regarding local input, legal consistency, multiple use and the 
Bureau of Land Management (BLM) Resource Management Plan (RPM) as 
relates to proposed amendments to the St. George RMP. According to the 
BLM, the proposed revisions in planning plans and amendments layout a 
range of alternatives and offer a variety of proposed management 
objectives and actions, ``providing a reasonable range of 
alternatives.''

    As Utah's largest general farm and ranch organization, we represent 
a significant number of livestock producers who use public lands for 
grazing sheep and cattle, including in Washington County, Utah. 
Livestock ranching is an important part of the history, culture and 
economic fabric of the state of Utah and is a major contributor to the 
state's economy.

    Utah food and agriculture contributes to the state's economic 
health and provides jobs to thousands of our citizens. Utah farm gate 
sales in 2014 exceeded $2.4 billion according to the just released 2016 
Economic Report to the Governor. Utah State University analyzed the 
forward and backward linkages to industries like transportation, 
processing, packaging and determined food and agriculture are the 
catalyst for $17.5 billion in economic activity, or about 14 percent of 
the state GDP, and provides employment for nearly 80,000 Utahns with a 
payroll of more than $2.7 billion.

    During the multi-year negotiations and discussions that pre-dated 
the Omnibus Public Land Management Act of 2009, including the 
Washington County Lands Bill, a number of difficult issues were 
hammered out through often contentious discussions and negotiations. 
The bi-partisan measure was brought forward by Senator Bob Bennett (R-
UT) and Representative Jim Matheson (D-UT). It contained a number of 
provisions that elected Washington County Commissioners, elected 
Washington County Farm Bureau leaders and the Utah Farm Bureau were 
concerned about. But as the ``compromise'' moved forward, our 
understanding was it settled a number of long-standing conflicts and 
land issues including continued grazing, water development and 
wilderness.

    As the debate and negotiations concluded, Utah Farm Bureau 
appreciated that the process recognized the social and economic 
contributions livestock ranching makes in Washington County. We 
supported local efforts to provide grazing regulations and agency 
structure that embraced historic grazing rights and economic 
contributions important to Utah's rural communities, while balancing 
the resource needs. Through prudent application of multiple-use 
principles, renewable and abundant resources can be wisely used while 
protecting the many unique and sensitive parts of Utah. The Taylor 
Grazing Act establishes a congressional commitment to preference 
grazing rights that protects the historic rights of these Utah family 
ranchers, ultimately the foundation for economic stability in many of 
our rural communities.


    The St. George Draft RMP appears to be an attempt to unravel this 
historic local agreement contained in the Washington County Lands Bill 
as well as ignoring other state laws and congressional mandates. The 
renewed efforts to adversely impact family ranches, re-establishing a 
wilderness inventory processes and proposing to acquire Federal water 
rights in arid Washington County is in clear violation of state water 
law and is at the expense of Washington County's future. This is of 
concern to the Utah Farm Bureau.
                           the american west

Family Ranching--An American Subculture

    When Federal and state agencies make decisions about historic 
public lands grazing rights, ranching should be considered a cultural 
resource and not just an economic activity. Family ranching in the 
American West, including Washington County, Utah, should be considered 
an American subculture with a unique cultural heritage that is 
increasingly threatened--including by adverse Federal agency actions. 
Less than 2 percent of U.S. citizens belong to this family farming and 
ranching class with a growing set of challenges headlined by Federal 
regulations and agency actions.

    Rather than looking at family ranches as only stakeholders with an 
economic interest, land management agencies should consider them as 
environmental and cultural resources. Our western ranching heritage is 
part of an integrated system that ensures knowledge is passed on from 
generation to generation. This is vastly different from the government 
employees who are assigned for a short time to an area and quickly 
moved from place to place--often due to management philosophies or 
conflicts detrimental to local relationships and local residents.

    So long as this family ranching system remains intact, families 
will continue to contribute to the local environmental needs, economy 
and culture. If they face too many challenges, including those 
manufactured through the politics of the day and Federal land 
management agency changing philosophies. These multi-generational 
ranching families will ultimately fail. This is a threat to the entire 
Washington County system and its environmental landscape, history, 
culture and economy.
                               livestock
Public Land Grazing

    Farm Bureau believed that in the Washington County Lands Bill, one 
of the pre-conditions agreed to by the parties, was that livestock 
grazing would not be reduced. This agreement underscored the importance 
of historic and productive family ranching and livestock grazing as a 
major contributor to the history, culture and economy of Washington 
County. Ranchers, in this harsh environment, have taken pride in being 
good stewards. Federal land managers have historically recognized their 
knowledge, good stewardship practices and valued understanding of the 
lands and grazing resources.

                          St. George Draft RMP

                 Table 2-11: Livestock Grazing/Page 84

    References to livestock grazing in the draft are troubling, based 
on the prior understanding the Washington County Commissioners and Farm 
Bureau had contained in the Washington County Lands Bill.

    Alternative A: ``No action'' is the only alternative that will not 
be adverse to the future of family livestock ranching in Washington 
County. However, Alternative A provides a limitation on the kinds of 
livestock that will be allowed and that conversion from cattle to sheep 
``will not be allowed'' in consideration of existing herds of desert 
big horn sheep, which may jeopardize the health or viability of the 
herds. It should be pointed out there is no definitive, independent 
scientific research that attributes pneumonia in big horns to domestic 
sheep grazing. The science does note pneumonia in big horn herds is 
more likely due to stress. In addition, it should be noted that 
wildlife, including big horn sheep, fall under the legal purview of the 
state of Utah and is not a Federal responsibility.

    Alternative B: Establish grazing utilization levels at 40 percent 
of current year's growth on allotments in designated critical habitat 
for desert tortoise. The 40 percent utilization means either a 
reduction in animal numbers on the allotment or a reduction in the days 
spent on the allotment. The 40 percent utilization rate would require 
leaving forage that was harvested under prior year's conditions, 
allowing more dead and decadent forage, increasing the probability for 
wildfire obviously detrimental to the tortoise. It should be noted, the 
Beaver Dam Allotment is used for winter grazing. The forage has already 
matured and dried. Livestock will harvest the dried out forage allowing 
for more vibrant, new growth to occur. Wildlife biologists recognize 
new, tender plant growth is preferred by elk and other species, 
including the desert tortoise.
    Voluntary relinquishment and the BLM retiring livestock grazing 
rights violates Federal law (Taylor Grazing Act) and should be removed 
from the list of potential grazing actions under Alternative B. Under 
the law, if a rancher voluntarily relinquishes or abandons livestock 
grazing rights, after 3 years of non-use, the agency is required to 
reissue the grazing permits.

    Alternative C: The ``no use'' grazing scenario should be 
immediately removed from consideration due to agreement in the 
Washington County Lands Bill. Its adverse impact on the environment 
including the increased potential for catastrophic wildfires and 
assault on family ranching that is an important part of the history, 
culture and economy of Washington County has to be recognized.

    Alternative D: Alternative D and the 45 percent utilization follows 
the same logic and associated grazing cuts and impacts as Alternative 
B, but at an increased adverse consequence.
Utah Farm Bureau Position of Grazing Alternatives

    Utah Farm Bureau supports Alternative A, the ``No Action'' 
alternative which allows ranching to continue to be a viable part of 
the local economy recognizing this unique western subculture and its 
valuable resource knowledge base.
    Utah Farm Bureau opposes the actions outlined in Alternatives B, C 
and D based on the adverse impacts on family ranches; adverse 
ecological impacts; and the commitments and agreements made in the 
Washington County Lands Bill.
Economics

    Livestock production is the backbone of Utah's agriculture 
industry, contributing more than 70 percent of our state's $2.4 billion 
in farm gate sales. With a $17 billion dollar contribution to the 
state's economy and more than 80,000 jobs, it is without debate this 
impact it is of greater significance to rural communities.
    Congressionally mandated multiple-use of the public lands is 
critical to the economic well-being of rural Utah, including Washington 
County. The mix of private and public lands ranching for generations 
has created new wealth through the harvest of annually renewable forage 
that drives our rural economies. In addition, livestock grazing on the 
public lands provides a benefit to all Americans, not just those 
physically and financially able to visit the public lands states. 
Access to public lands, including the Beaver Dam Slope, is critical to 
the culture and economy of Washington County!

    Utah Farm Bureau Federation delegates reaffirmed support of 
``multiple use concepts in management of natural resources on public 
lands by local, state and Federal land management agencies'' as 
mandated by Congress.

    In addition, policy adopted by the delegates at the 2016 annual 
convention of the American Farm Bureau recognized the ``public benefits 
provided by science-based grazing management including thriving, 
sustainable rangelands; quality watersheds; productive wildlife 
habitat; viable rural economies; reduction of wildfire hazards; and tax 
base support for critical public services'' coming from the multiple 
use of the federally-managed public lands.

    Nearly 6 million American Farm Bureau members and leaders located 
in all 50 states across America continue their long standing policy 
supporting ``livestock grazing as an integral part of multiple-use and 
management of the natural resources on the public lands.'' Policy 
further stated that ``grazing should be continued by legitimate 
ranching interests with permits being awarded to livestock owners with 
base property and water rights.''

    The Taylor Grazing Act provides for the allocation of grazing 
resources to livestock and recognizes the economic contribution it 
makes to rural communities in the American West. Grazing rights should 
not be transferred. retired or abandoned by agency actions hurting 
ranching families and curtailing grazing activities.

    The existing Management Framework Plans (MFPs) identify grazing 
allotments as being open for livestock grazing and within the authority 
of the 1934 Taylor Grazing Act, the Federal Land Policy and Management 
Act and the Grazing Administration regulations under Title 43 CFR 4100. 
This is the same historic reference used in many EAs completed by BLM 
Field Offices across Utah, which applies to the St. George Draft RMP. 
As such, the Secretary of the Interior has determined these allotments, 
including in the St. George Draft RMP, to be ``chiefly valuable for 
grazing.''

    From a macro-economic standpoint, legitimate, locally based 
ranching interests are critical to Utah's rural communities and 
infrastructure. The agriculture and food processing sectors, coupled 
with related industries, contribute $17 billion to the Utah economy, 
are the catalyst for more than 80,000 Utah jobs and provide $2.7 
billion in wages according to the 2016 Economic Report to the Governor.

    From a micro-economic standpoint and significant to Washington 
County, it is important to recognize the impact of displacing even one 
single average-sized cattle ranching operation. Consider the following:

    <bullet> Utah is a cow-calf cattle production state with cattle and 
            calves contributing more than one-third of the state's 
            agricultural commodity sales. According to the Salina 
            Livestock Auction, feeder cattle arriving from Washington 
            County in recent months for auction generally averaged 
            between 500-600 pounds and were valued at about $1.85 per 
            pound or $1,000 average per head. An average cow-calf 
            ranching operation with 500 mother cows and a 95-percent 
            calf survival rate adds nearly $500,000 in direct cattle 
            sales to the local economy. Based on the economic ripple 
            effect as those dollars are spent in the local economy, 
            that single family ranching business is the catalyst for 
            more than three-quarters of million dollars in the 
            Washington County economy!

    <bullet> According to the 2014 Annual Utah Agriculture Statistics 
            Report, there are currently approximately 6,500 beef cows 
            in Washington County. With only 18 percent of Washington 
            County privately held, it must be assumed nearly all mother 
            cows and their calves spend time grazing on public lands.

    <bullet> The current price for feeder steers averaging 500-600 
            pounds coming off Utah rangelands for sale at the Salina 
            Market is around $1.85-$1.95 per pound. Assuming 6,000 
            feeder calves averaging 550 pounds per head are marketed 
            from cattle grazing Washington County public lands, local 
            cattle ranchers produce and market approximately 3.5 
            million pounds of beef on the hoof with a farm gate sales 
            value of nearly $6,000,000. In addition, economists 
            estimate the cattle industry's ripple effect on the economy 
            for fuel, equipment, vehicles, trucking and so on is 1.5 to 
            2 times sales in the local economy. Beef cattle raised 
            utilizing the annually renewing forage on public lands in 
            Washington County generates between $10,000,000 and 
            $12,000,000. And this contribution is reoccurring in the 
            Washington County economy every year!

    This is an annual economic contribution to the local, state and 
national economy that provides meat protein to feed Americans. As these 
livestock generated dollars ripple through the local economy, they are 
paying taxes for roads, hospitals, law enforcement and search and 
rescue--of growing importance to those who recreate across the 
landscape of southern Utah.
                      redefining ``multiple use''
    Federal land management agencies seem to be working to redefine the 
multiple use concept as intended by Congress. Adverse agency actions, 
including but not limited to, dramatic cuts in Utah livestock grazing 
AUMs, restrictions in access including closures of historic RS 2477 
roads critical to sustaining ranching operations, claims of ownership 
of water rights on Federal lands challenging state sovereignty and 
private property seizures without due process and just compensation 
creating uncertainty for hard working ranching families.
A Systematic Dismantling of Livestock Ranching

    An analysis of Federal management and dramatic cuts in livestock 
grazing has had major adverse impacts on the ranching industry, 
families and rural communities on Utah. Historically, grazing AUMs in 
Utah hit a high point in the late 1940s at more than 5.5 million 
administered by the BLM and Forest Service. An AUM is the amount of 
forage required to feed one cow and calf or five sheep grazing on 
rangeland for 30 days. There were 3,467 ranching families grazing sheep 
and cattle on Utah BLM administered public lands in 1949 supporting 
businesses and their rural communities. At its peak, Utah rangelands 
supported more than 3 million sheep. Today there are only about 295,000 
sheep and lambs--a 90 percent drop!
    The FS reports in 2012, approximately 840,000 active AUMs, of which 
225,000 are in non-use status. BLM reports in 2012, around 1,190,000 
active AUMs with 340,000 in suspended use (non-use) status. Of the more 
than 5.5 million AUMs originally managed by Federal agencies, only 
2,028,000 AUMs remain today. However, it is important to note there are 
more than 550,000 of those so-called ``active'' AUMs that are in non-
use or suspended use status in Utah.
    Utah livestock ranching families have seen a whopping 3.5 million 
AUMs cut across the landscape--or a shocking 74 percent cut! These 
actions, cuts and suspended use, are solely at discretion of the 
Federal land managers including actions like proposed in current St. 
George Draft RMP Alternatives B, C and D.
    The livestock grazing industry has been heavily impacted by BLM AUM 
cuts. In 1949 there were 3,467 ranching families grazing livestock on 
BLM managed lands. Of the 3,467 ranching families in 1949, only 1,445 
ranching families remain today producing beef and lamb and harvesting 
the forage that renews each year on the public lands. That means more 
than 2,000 ranching families have given up or have been forced from (58 
percent) Utah's vast rangelands. Last year alone, even with beef prices 
at historic highs, Utah ranchers cut 30,000 head of cattle from the 
Utah cattle herd--with Federal regulatory actions and associated 
uncertainty a major cause of the liquidation.
    The loss of 30,000 beef cattle in Utah and the corresponding 
smaller Utah cattle herd means that rural communities had an economic 
loss exceeding $70 million--a loss every year until we rebuild the Utah 
cattle herd.
Costs to Consumers and the Environment

    The outcome of these dramatic Federal grazing cuts hits every 
American in the pocketbook through higher beef and lamb prices. As for 
the western landscape, reduced grazing has ushered in an era of 
expanding acreages of noxious weeds and unharvested grass, decadent and 
dying forage and unmanaged landscapes leading to a growing number of 
catastrophic wildfires.
                              water rights
Livestock Water Rights

    Water was developed historically for the production of food and 
fiber to meet man's most basic need. According to water rights experts, 
farmers, ranchers and agriculture interests currently own and control 
as much as 81 percent of Utah's water rights.
    Scarcity of water in the Great Basin and much of the western United 
States led to the development of a system of water allocation and water 
rights that is very different from how water is allocated in regions 
graced with abundant moisture. Rights to water are based on actual use 
of the water and its continued use for beneficial purposes as 
determined by state laws. Water rights across the West are treated 
similar to property rights, even though the water is the property of 
the citizens of the states. Water rights can be, and often are, used as 
collateral on mortgages as well as improvements to land and 
infrastructure.
    The principles of western water law are very different from an 
eastern riparian interest in water. Western water law determines water 
rights based on the Doctrine of Prior Appropriation (first in time, 
first in right) and beneficial use, not a property relationship with 
the waterway. However, under either style of appropriation if the 
Federal land management agency asserts control of private water rights, 
it violates constitutional protections against government takings 
without due process and just compensation.

    Livestock water rights are critical to the success and well-being 
of ranchers across the western public lands states. Water for livestock 
has been developed across the vast western rangelands since pioneer 
settlement and before the establishment of the BLM or the FS.

    Growth and opportunity in the public lands states continues to be 
adversely impacted by Federal control of the lands coupled with the 
aggressive actions of Federal agencies on the region's water resources. 
Legal actions and Federal water claims create uncertainty and imperil 
historic state water laws and private property rights.

Doctrine of Prior Appropriation

    The Doctrine of Prior Appropriation, or ``first-in-time, first-in-
right,'' establishes that water rights are obtained by diverting water 
for ``beneficial use'' as determined by state law. Those uses include 
irrigation, livestock watering (including water developed and used for 
livestock watering on the federally-owned land), domestic use, 
municipal use, manufacturing, mining, oil and gas development, power 
generation and in some cases fish, wildlife and recreation based on 
state law. The amount of the water right is the amount of water 
diverted and put to beneficial use. Western states adopted the doctrine 
of prior appropriation and beneficial use to manage the development and 
to make sure of the judicious use of the state's precious waters.

                          St. George Draft RMP

                Table 2-37: Water Resource/Page 178-179

    Alternative A: The ``No Action'' alternative recognizes 
``Federalism'' and the long-standing state/local partnership in 
Washington County protecting the water resources, community water sheds 
and culinary water, improve water quality, ensure availability and meet 
essential community needs.

    Alternatives B, C and D: Collectively the B, C, and D Alternatives 
offer an open-ended assault on Washington County's future and more 
specifically on livestock water rights and the state's water 
sovereignty. As stated, the collective Alternatives provide for a 
broadly-defined mechanism establishing Federal control over Washington 
County water resources through UFBF-St. George Draft RMP Page 8 
language stating; ``fulfill the purposes of the NCA and sustain 
ecosystem resiliency under changing climatic conditions.''

    As Draft RMP guidance to this set of common Alternatives, 
management actions would include pursuing ``the acquisition of non-
Federal lands from willing sellers in the NCA.'' This action violates 
Utah Law mandating ``no net loss of private lands.''

    Included in Alternative B, C and D, Farm Bureau is concerned with 
guidance to pursue the ``acquisition of surface and groundwater rights 
from willing sellers to benefit the conservation and protection of wild 
life and aquatic habitats and riparian resources.'' In Utah, and more 
specifically in Washington County, water is the limiting factor to 
population growth, economic opportunity and historic farming and 
ranching. The Federal Government should not be in competition with the 
priorities and policies of Washington County and local governments.

    In addition, the ``Do not authorize land uses that would export 
water from the NCA'' action contained in the common Alternative is an 
egregious Federal over-reach that would put Washington County's future 
in jeopardy. Access to the state's sovereign water rights, both surface 
and underground, is a historic right granted by the United States 
Congress.
    Finally, contained within the common Alternative is a guidance 
stating ``BLM will work with the state of Utah to ensure that BLM 
obtains rights on all inventories point sources (springs, seeps, wells, 
reservoirs, etc.) for authorized beneficial uses within the NCA, 
including wildlife, recreation, domestic use within visitor facilities, 
and the improvement of habitats and riparian resources.''

    Much of what the BLM identifies (springs, seeps, wells, etc.) as 
targeted point water sources are already established livestock water 
rights belonging to ranching families. Utah Law (The Livestock Water 
Rights Act) defines who can hold livestock water rights as they exist 
across the Utah landscape. Livestock water is specifically defined as a 
beneficial use of the state's sovereign waters. Also explicitly defined 
in the Act, is language that expressly prohibits ownership of livestock 
water rights by the Federal Government.

    As defined, the Federal Government cannot put Utah livestock water 
rights to beneficial use, therefore cannot hold livestock water rights. 
All other water rights the BLM or other Federal agencies would seek, 
would have to be applied for like any other water user to the State 
Engineer based on the state's definition of beneficial us. Utah water 
law recognizes and provides:

        ``A livestock water right is appurtenant to the allotment on 
        which the livestock is watered.''

Joyce Livestock Company vs United States (2007)

    In Joyce Livestock Company vs. United States, the Owyhee County 
based cattle operation had ownership dating back to 1898 including in-
stream stock water rights. The United States over-filed on the Joyce 
water rights based on a priority date of June 24, 1934--the date of 
passage of the Taylor Grazing Act. The United States could not show 
that Joyce or any of its predecessors were acting as its agents when 
they claimed to have acquired the water rights. In 2007 the Idaho 
Supreme Court denied the United States claim and defined the standard 
of beneficial use.

    The Idaho Supreme Court found:

        ``The District Court held that such conduct did not constitute 
        application of the water to beneficial use under the 
        constitutional method of appropriation, and denied the claimed 
        rights. The Idaho Supreme Court concurred holding that because 
        the United States did not actually apply the water to a 
        beneficial use the District Court did not err in denying its 
        claimed water rights.''

Hage vs. United States (2012)

    In Hage vs. United States the courts recognized that Federal land 
management agencies cannot gain de facto water rights through denial of 
access to Federal lands or through reductions in grazing AUMs. 
Following protracted legal battles, Nevada Chief Federal Judge Robert 
Jones and the U.S. Appeals Court for Washington, DC provided an 
important legal ruling, agreeing that livestock ranchers with 
recognized state livestock water rights have ``a right of access'' to 
put their state sanctioned livestock water rights to beneficial use on 
Federal lands. According to Chief Judge Jones, access to beneficially 
use livestock water includes a forage right on Federal lands.
                  congress grants water to the states

    To effectively and efficiently deal with water issues, settlers in 
the arid West developed their own customs, laws and judicial 
determinations to deal with mining, agriculture, domestic and other 
competing uses recognizing the Doctrine of Prior Appropriation or first 
in time, first in right. Out of this grew a fairly uniform body of laws 
and rights across the western states. The Federal Government was the 
original sovereign and owner of the land and water. Congressional 
actions ultimately granted water ownership to the sovereign states and 
acquiesced to the states on all matters of adjudication. Congress was 
clear on who controlled, managed and allocated water through a series 
of actions recognizing local laws, customs and judicial decisions.
Act of July 26, 1866

    The U.S. Congress passed the Act of July 26, 1866 [subsequently 
referred to as the Mining Act or Ditch Act of 1866] that became the 
foundation for what today is referred to as ``Western Water Law.'' The 
Act recognized the common-law practices that were already in place as 
settlers made their way to the western territories including Utah. 
Congress declared:

        ``Whenever, by priority of possession, rights to the use of 
        water for mining, agriculture, manufacturing, or other 
        purposes, have vested and accrued, and the same are recognized 
        and acknowledged by the local customs, laws and decisions of 
        courts, the possessors and owners of such vested rights shall 
        be maintained and protected'' (43 USC Section 661)

    This Act of Congress obligated the Federal Government to recognize 
the rights of the individual possessors of water. But as important, the 
Act recognized ``local customs, laws and the decisions of the state 
courts.''
The Desert Land Act of 1877

        ``All surplus water over and above such actual appropriation 
        and use . . . shall remain and be held free for appropriation 
        and use of the public for irrigation, mining and manufacturing 
        . . .''

The Taylor Grazing Act of 1934

        ``nothing in this Act shall be construed or administered in a 
        way to diminish or impair any right to the possession and use 
        of water for mining, agriculture, manufacturing and other 
        purposes . . .''

The McCarran Amendment of 1952

    Congress established a unified method to allocate the use of water 
between Federal and non-Federal users in the McCarran Amendment. (43 
USC Section 666) The McCarran Amendment waives the sovereign immunity 
of the United States for adjudications for all rights to use water.

        ``waives the sovereign immunity of the United States for 
        adjudications for all rights to use water.''

The 1976 Federal Land Policy Management Act

        ``All actions by the Secretary concerned under this act shall 
        be subject to valid existing rights.''

    Congress has granted and continues to recognize the sovereign 
rights of the states to regulate, manage and adjudicate its waters and 
is explicit in the limits it places land management agencies.

United States Supreme Court

    In Tarrant Regional Water District vs. Hermann (2013) the U.S. 
Supreme Court (SCOTUS) concurred with Congress on the matter water and 
the sovereign rights of the states. SCOTUS said:

        ``The power to control public uses of water is an essential 
        attribute of [state] authority.''

Utah Farm Bureau Position on Water Resources Alternatives

    Utah Farm Bureau supports Alternative A, the ``No Action'' 
alternative, providing a framework for continued collaboration with 
Washington County and its future needs, meeting the needs of the 
ecosystem, recognizing state and Federal law and protecting current 
existing privately held water rights.

    Utah Farm Bureau opposes the common alternative as identified in 
Alternatives B, C and D due to the impact on Washington County, its 
future, encroachment on private property rights, violation of Federal 
and state laws and lack of authority under the congressionally mandated 
Omnibus Public Land Management Act containing the Washington County 
Lands Bill.
                               conclusion
    Washington County and Farm Bureau ultimately supported the 
Washington County Lands Bill based on assurances related to livestock 
grazing rights being honored and that the wilderness inventory and 
review process was complete. The Draft RMP provides alternatives that 
likely will undermine this historic collaboration and agreement and 
future efforts in Utah and across the West. Of major concern is the 
open attack on the state's sovereign waters and recognized property 
rights as prescribed by Congress and the courts. Utah Farm Bureau 
supports the ``No Action'' alternatives for both livestock grazing and 
water resources fundamental to federalism, state law and the Omnibus 
Public Land Management Act of 2009.

                                 ______
                                 

    Mr. McClintock. We will now proceed to the panel of 
questions, which are also governed by the 5-minute rule. I will 
begin.
    Commissioner Gardner, let me pick up on your last point. 
This was supposed to be a model for collaborative agreements, 
where all sides could sit down to work out their differences 
and settle on a compromise that all sides could live with. You 
just discussed in great detail the lengths you went to during 
those discussions and the major concessions that were made in 
anticipation that this was an agreement that would be honored.
    What would you advise other communities that are invited to 
participate in such give-and-take negotiations in the future?
    Mr. Gardner. Well, I think you need strong language in the 
bill to start with. But as you go into the process, I think it 
is very important that BLM honor the cooperating agency----
    Mr. McClintock. If I could interrupt right there, was there 
strong language in the legislation, and has the BLM honored the 
agreement?
    Mr. Gardner. Some of it was a little bit squishy. But, no, 
they have not honored the agreement to be a cooperating agency. 
As I mentioned, we had three different opportunities given to 
us to meet with the BLM when they were actually working on the 
materials for that. Two of those opportunities, we were there. 
The other one, we were not able to be there at that time. We 
had five or six opportunities where they kind of came in and 
gave us an update. But a lot of these surprises that we saw in 
the draft were never mentioned.
    Mr. McClintock. There is a disagreement over the northern 
corridor road, which seems to be clearly spelled out in the 
law. ``The Secretary of the Interior shall identify a route.'' 
It does not say ``study'' or ``consider,'' and it does not say 
``may.'' It says ``shall identify a route.''
    What was the nature of the discussions at that time?
    Mr. Gardner. It also specifically said that Washington 
County and St. George City were to be involved in those 
discussions. We had some limited discussions on that. The 
county did give a potential spot for a road where we would like 
to see it.
    Mr. McClintock. Was it the consensus at the time that a 
northern corridor road would be identified as part of this 
agreement and would be constructed?
    Mr. Gardner. That was the consensus, that this road would 
be identified.
    Mr. McClintock. Mayor Pike, was that your understanding as 
well?
    Mr. Pike. Yes, although I was not there at the time. From 
the records that we have, yes, it was absolutely identified.
    Mr. McClintock. Let me ask you this. There also seems to be 
a disagreement on who represents the people of this community. 
Mr. Van Dam admits that by election he does not represent the 
people of this community. He says the northern route is not 
needed. The BLM has obviously come down on that side by 
preferring an alternative without the promised route.
    So, let me ask Commissioner Gardner or Mayor Pike, who is 
responsible for meeting the transportation needs of the local 
community?
    Mr. Gardner. The county and the city.
    Mr. McClintock. So not a self-appointed pressure group, and 
not unelected bureaucrats, but the elected representatives of 
the city and county whose people pay the taxes and whose 
livelihoods and quality of life depend upon these projects?
    Mr. Gardner. Correct.
    Mr. McClintock. Mayor Pike, one pattern I have seen in my 
own district that seems to be repeated here is that Federal 
land agencies identify very narrow special-interest ideological 
groups of like mind to what these agencies want to do. They 
coordinate closely with them, and then they claim to have 
consulted the community's representatives. The problem is the 
only actual bona fide representatives of the community are the 
representatives the community has elected. Everyone else is 
self-appointed, and the elected representatives are either 
ignored or marginalized in the process. That was reflected in 
Mr. Van Dam's testimony. ``Well, the BLM is doing a great job; 
they listened to me.'' Well, Mr. Van Dam does not speak for the 
community. The elected officials of the community speak for it, 
and I would like you to comment on what extent you were 
involved in the process compared with these pressure groups.
    Mr. Pike. Again, I have been the mayor of the city for a 
little over 2 years, and on the City Council for 6 years prior. 
Neither the former mayor, nor I, the City Council, city 
manager, water, energy, or public infrastructure departments, 
were consulted at any time regarding these plans.
    Mr. McClintock. Let me just get one final yes or no answer. 
If a community, say, in my district were invited to participate 
in this process, to make concessions, with the expectation that 
they would be ratified into law and carried out, would you 
advise the people of my community to participate in such a 
process as you have been through? Just yes or no.
    Mr. Gardner. No.
    Mr. Pike. No.
    Mr. McClintock. Thank you.
    Mr. Lowenthal.
    Mr. Lowenthal. Thank you.
    My first question is for Ms. Whitlock. We have just heard 
in the previous questions much about the northern 
transportation corridor or the lack thereof of BLM addressing 
it. Did BLM address this issue in the preferred alternative in 
the RMP planning process for the Red Cliffs National 
Conservation Act?
    Ms. Whitlock. Yes. The Act, OPLMA, requires the BLM to 
identify one or more alternatives in the county as part of our 
travel management plan. Now, these draft EISs that were issued 
last year in July were not those travel management plans. But 
we will consider a northern transportation route in Washington 
County, as required by OPLMA. And Alternative D of our draft 
EIS accommodates all of the alignments that the county provided 
to BLM, including their preferred alternative. So, Alternative 
D.
    Mr. Lowenthal. You are familiar with the portion of the 
Omnibus Public Land Management Act that deals with the 
corridor, yes?
    Ms. Whitlock. Yes.
    Mr. Lowenthal. And as you pointed out, does it require your 
agency to designate the corridor in the travel plan?
    Ms. Whitlock. No. It directs us to identify one or more 
alternatives for a northern transportation route in our travel 
management plan.
    Mr. Lowenthal. Thank you. Could you give us an overview of 
why the agency-preferred alternative is one without the 
corridor? Why did they do this?
    Ms. Whitlock. OPLMA includes some very specific management 
criteria for the Red Cliffs NCA. It requires that we only 
permit uses in the NCA that further the purposes of the NCA, 
which are to conserve, protect, and enhance resources; and 
second, to protect any listed species, any threatened or 
endangered species.
    Mr. Lowenthal. I have before me Senator Bennet's written 
testimony to his Senate colleagues about the Washington County 
Growth and Conservation Act of 2008, which became the part of 
the 2009 Omnibus Public Land Management Act that we are talking 
about. I would like to read this one part of Senator Bennet's 
testimony.
    ``Congressman Matheson and I have made significant changes 
to the previous proposal. We have permanently protected large 
amounts of biologically significant public land in Washington 
County, including additional wilderness and a new National 
Conservation Area. We have removed the corridor designations 
for the Lake Powell Pipeline Corridor and the Northern Corridor 
that bisected the Red Cliffs Desert Reserve.''
    So, there is certainly an intention of not requiring the 
northern transportation corridor to be there from the Senator's 
own testimony before the Senate Subcommittee on Public Lands 
and Forests.
    A question now for Mr. Van Dam. Mr. Van Dam, as a St. 
George resident, tell me why you live in this area. Is it 
because of the beautiful protected lands?
    Mr. Van Dam. Of course, that is a huge part of it, because 
you can go anywhere in this county and appreciate the qualities 
that have existed for so long and continue to exist because we 
protect them.
    Mr. Lowenthal. What would the impact of this highway 
corridor be on the integrity of those protected species?
    Mr. Van Dam. We have gotten statements from those who 
really know about this, including Dr. Mader and the Desert 
Tortoise Association in California, who say that putting a road 
like this through the heart of this NCA would not only be 
detrimental but impossible to coordinate for protection of 
these tortoises; it just simply cannot be done.
    Mr. Lowenthal. You live in one of the towns that is 
purported to benefit by this highway. Do you know how much time 
would be shaved off your drive if it was built?
    Mr. Van Dam. There have been a couple of different studies 
made, but for my purposes, living in Ivins, it says that I am 
going to conserve 1.7 minutes. That does not seem like much to 
me. But even if it is more than that, if it is 5 minutes, the 
problem with this road, Representative, is that it is going to 
bring a tremendous amount of traffic, and then it comes back 
into the road that already exists, the Red Hills Parkway, at 
about a mile and a half from the time it hooks up to Highway 
18, completely negating the effect that you might have for the 
movement of traffic, which I don't understand.
    Mr. Lowenthal. Thank you.
    Mr. McClintock. The gentleman's time has expired.
    The Chair now recognizes the Chairman of the Natural 
Resources Committee.
    Mr. Lowenthal. May I just enter one thing into the record?
    Mr. McClintock. All right.
    Mr. Lowenthal. I have the written testimony of Mr. Neal 
Clark, the Supervising Field Attorney for the Southern Utah 
Wilderness Alliance, on behalf of the Utah Wilderness 
Coalition.
    Mr. McClintock. Without objection.
    Mr. Lowenthal. Thank you.
    [The prepared statement submitted for the record by the 
Utah Wilderness Coalition follows:]
Prepared Statement of Neal Clark, Supervising Field Attorney, Southern 
  Utah Wilderness Alliance on behalf of the Utah Wilderness Coalition
                              introduction
    Mr. Chairman and members of the committee, thank you for providing 
the Utah Wilderness Coalition with the opportunity to present our views 
on the National Conservation Area (NCA) Resource Management Plan (RMP) 
process currently underway in the Bureau of Land Management's (BLM) St. 
George Field Office.
    The Utah Wilderness Coalition (UWC) is a coalition of conservation 
organizations committed to protecting wilderness-quality lands in Utah 
as wilderness. Since 1989, UWC has advocated for the passage of 
America's Red Rock Wilderness Act, legislation that would protect 
approximately 9.4 million acres of BLM-managed public lands in Utah as 
designated wilderness.\1\ The UWC includes the Southern Utah Wilderness 
Alliance, the Natural Resources Defense Council, and the Sierra Club.
---------------------------------------------------------------------------
    \1\ America's Red Rock Wilderness Act, S. 1375, H.R. 2430, 114th 
Cong. (2015).
---------------------------------------------------------------------------
    The Southern Utah Wilderness Alliance (SUWA) is a Utah-based non-
profit organization dedicated to the preservation of the outstanding 
wilderness at the heart of the Colorado Plateau, and the management of 
these lands in their natural state for the benefit of all Americans. 
Since 1983, SUWA has promoted local and national recognition of the 
region's unique character through research and public education; has 
supported both administrative and legislative initiatives to 
permanently protect the Colorado Plateau's wild places within the 
National Park and National Wilderness Preservation Systems, or by other 
protective designations where appropriate; has built support for such 
initiatives on both the local and national level; and has provided 
leadership within the conservation community through uncompromising 
advocacy for wilderness preservation.
    The Natural Resources Defense Council (NRDC) is an international 
non-profit environmental organization with more than 2 million members 
and online activists. Since 1970, NRDC's lawyers, scientists, and other 
environmental specialists have worked to protect the world's natural 
resources, public health, and the environment.
    The mission of the Sierra Club is to explore, enjoy, and protect 
the wild places of the earth; to practice and promote the responsible 
use of the earth's ecosystems and resources; and, to educate and enlist 
humanity to protect and restore the quality of the natural and human 
environment. The Sierra Club has over 2 million members and supporters 
across the United States. Since 1892, the Sierra Club has worked to 
protect wilderness-quality lands across the United States. In 1985, the 
Sierra Club was one of the founding members of the UWC whose goal is 
the permanent protection of all BLM wilderness-quality lands in Utah as 
wilderness.
    The UWC submits this testimony in order to clarify the historical 
record surrounding the 2009 Omnibus Public Land Management Act 
(hereafter ``Washington County lands bill'') that, in part, designated 
the Beaver Dam Wash and Red Cliffs NCAs, and to counter recent 
misinformation regarding the public process that led to ultimate 
passage of the 2009 legislation.\2\ In doing so, we fully support the 
ongoing efforts of the St. George BLM in developing a conservation-
focused management plan for the two designated NCAs, as required by the 
2009 legislation.
---------------------------------------------------------------------------
    \2\ Omnibus Public Land Management Act (OPLMA), Public Law 111-11, 
Title I, Subtitle O--Washington County, Utah (2009).
---------------------------------------------------------------------------
    In 2004, the UWC began discussions with then-Utah Governor Olene 
Walker regarding a public lands bill in Washington County, Utah. These 
initial conversations led to a 5-year process, promoted by then-Utah 
Senator Bob Bennett, which included myriad field tours and meetings 
between the congressional delegation and a variety of stakeholders. 
Although imperfect, the process led to the creation and ultimate 
passage of the 2009 legislation, which was introduced by Senator 
Bennett and supported by the entire Utah congressional delegation and 
Washington County Commission.
    The 2009 Washington County lands bill--which designated the 63,478-
acre Beaver Dam Wash NCA and the 44,859-acre Red Cliffs NCA--required 
the BLM to ``develop a comprehensive plan for the long-term management 
of the National Conservation Area[s].'' \3\ On July 17, 2015, BLM 
released its draft RMP for the Beaver Dam Wash and Red Cliffs NCAs. The 
draft RMP is the result of a 6-year planning process by the St. George 
BLM. The process has been consistent with the legislative language in 
the 2009 Washington County lands bill, while also ensuring compliance 
with the BLM's ongoing obligations under the Federal Land Policy and 
Management Act (FLPMA).\4\
---------------------------------------------------------------------------
    \3\ OPLMA, Section 1974-1975.
    \4\ Federal Land Policy and Management Act (FLPMA), 43 U.S.C. 
Sec. 1701-1785.
---------------------------------------------------------------------------
    Since public release of the draft RMP, those opposed to the plan 
have attempted to revise the historical record regarding the 
development and passage of the Washington County lands bill. Most 
concerning are efforts to mandate a northern transportation corridor 
through the Red Cliffs NCA and to prohibit the BLM from meeting its 
obligation under FLPMA to maintain an inventory of wilderness-quality 
lands.\5\
---------------------------------------------------------------------------
    \5\ Id. at Sec. 1711.
---------------------------------------------------------------------------
                    northern transportation corridor
    The Red Cliffs NCA was established ``[t]o conserve, protect and 
enhance for the benefit and enjoyment of present and future generations 
the ecological, scenic, wildlife, recreational, cultural, historical, 
natural, educational, and scientific resources'' of the protected 
lands.\6\ The Red Cliffs NCA includes the Red Cliffs Desert Reserve, a 
reserve established in 1995 as part of the Washington County Habitat 
Conservation Plan (HCP) for the purpose of protecting and aiding in the 
recovery of the Mojave desert tortoise, a threatened species under the 
Endangered Species Act. The 1995 HCP, developed between Washington 
County and the U.S. Fish and Wildlife Service (USFWS), allowed USFWS to 
issue an incidental take permit to Washington County for the incidental 
take of approximately 1,169 desert tortoises. The ITP, issued in 1996, 
allowed Washington County to develop 12,264 acres of non-Federal land 
within critical Mojave desert tortoise habitat, resulting in the 
incidental mortality of 1,169 threatened tortoises. Notably, the 1995 
HCP intentionally did not include plans to develop a transportation 
corridor through the Red Cliffs Desert Reserve.\7\
---------------------------------------------------------------------------
    \6\ OPLMA, Section 1975(a).
    \7\ See The Spectrum, The truth: A highway wasn't part of the plan 
(January 18, 2016) (a statement by the first administrator of the 
Washington County HCP that ``[t]he HCP was signed by the Washington 
County Commission on the clear basis that there would be no highway 
through it,'' and that ``[t]he HCP was based on a fundamentally simple 
premise that development would be allowed in tortoise habitat outside 
the reserve (now NCA) in exchange for no development--including a 
highway--inside the reserve.'') (emphasis in original).
---------------------------------------------------------------------------
    The current controversy stems from a belief that the Washington 
County lands bill obligated the BLM to approve a transportation 
corridor through the Red Cliffs NCA. A review of the plain text of the 
2009 legislation, supported by ample legislative history and public 
record, clearly indicates that the final Washington County lands bill 
purposefully omitted any requirement that BLM approve a northern 
transportation corridor. Furthermore, based on previous analyses 
conducted by both the USFWS and the BLM, the northern transportation 
corridor is incompatible with the purpose of the Red Cliffs NCA, the 
Red Cliffs Desert Reserve, and the Washington County HCP.
    On its face, the Washington County lands bill does not require that 
the BLM designate a northern transportation corridor through the Red 
Cliffs NCA. With regard to the proposed corridor, the legislation 
states only that in developing a travel management plan for the NCA, 
the BLM must ``identify one or more alternatives for a northern 
transportation route in the county.'' \8\ The legislation expressly 
omits any requirement or mandate that the BLM designate such a corridor 
(the BLM must only ``identify'' an alternative), and further does not 
limit BLM's identification of an alternative route to one that is 
located within the Red Cliffs NCA (BLM must only consider a route ``in 
the county''). The legislative history and public record fully supports 
the plain text of the legislation.
---------------------------------------------------------------------------
    \8\ OPLMA, Section 1977(b)(2)(A).
---------------------------------------------------------------------------
    Early versions of the legislation included mandatory language for 
the northern transportation corridor but, in response to public 
opposition, Senator Bennett and then-Utah Congressman Jim Matheson 
removed this requirement from the legislation in 2008. As stated by 
Senator Bennett in a 2008 Senate hearing on the legislation, 
``Congressman Matheson and I have made significant changes to the 
previous proposal. . . . We have removed the corridor designations for 
. . . the Northern Corridor.'' \9\ Furthermore, the public record 
evidences the fact that this change to the legislative language was 
widely known.\10\
---------------------------------------------------------------------------
    \9\ S. Hrg. 110-493 (April 22, 2008).
    \10\ See, e.g., Deseret News, Wilds bill may please many (April 10, 
2008) (stating that the highlights of the bill include that ``a 
northern transportation corridor are not included''); Salt Lake 
Tribune, Washington County land bill is pushed hard in D.C. (November 
16, 2006) (stating that ``[i]n a statement Tuesday, Bennett explained 
that . . . the so-called northern corridor highway could pass through 
tortoise habitat areas only after study and approval by the Secretary 
of Interior''); Salt Lake Tribune, A bad plan: Bennett's bill would 
encourage St. George sprawl (July 13, 2006) (stating that the bill 
``postpones a transportation artery through a preserve for protected 
desert tortoises''); KSL News, Bennett Matheson Revise Washington 
County Lands Bill (July 12, 2006) (stating that the revised bill 
postpones ``for further study the designation of a specific highway 
route through a protected reserve for desert tortoises'').
---------------------------------------------------------------------------
    Senator Bennett's removal of mandatory language for a northern 
transportation corridor is also consistent with the BLM's own 
determination that the corridor is inconsistent with the purpose of the 
Red Cliffs NCA, Red Cliffs Desert Reserve, and the Washington County 
HCP. As the BLM clearly stated in its analysis, a northern 
transportation corridor ``would not meet the Congressional mandate that 
the BLM `conserve, protect, and enhance' the resource values of the 
NCA, and in particular, all species listed under the protection of the 
ESA that occur in the NCA.'' \11\ Furthermore, developing Washington 
County's proposed northern transportation corridor would ``potentially 
jeopardize the continued existence of the threatened Mojave desert 
tortoise . . . and reduce populations and habitats for other at-risk 
species.'' \12\
---------------------------------------------------------------------------
    \11\ Draft NCA RMP, 790.
    \12\ Id.
---------------------------------------------------------------------------
    The text and intent of the legislation is clear--the BLM is under 
no obligation to develop a northern transportation corridor through the 
Red Cliffs NCA and, in fact, cannot do so if it intends to protect the 
fundamental conservation purpose of the NCA. Importantly, the lands 
within the Red Cliffs NCA were protected as a preserve for the 
threatened Mojave desert tortoise in exchange for allowing Washington 
County to develop land in critical tortoise habitat and, in turn, cause 
the mortality of 1,169 threatened tortoises. To date, Washington County 
has received its benefit under the HCP, yet it no longer wants to hold 
up its end of the bargain.
                 lands with wilderness characteristics
    In developing the draft NCA RMP, the BLM properly inventoried 
public lands in the planning area for the presence or absence of 
wilderness characteristics. Under Section 201 of FLPMA, the BLM is 
required to maintain an inventory of all public land resources, 
including areas that possess wilderness characteristics.\13\ The BLM's 
wilderness characteristics inventory, undertaken as part of the NCA RMP 
process, was required as part of the agency's ongoing obligations under 
FLPMA.
---------------------------------------------------------------------------
    \13\ FLPMA, 43 U.S.C. Sec. 1711.
---------------------------------------------------------------------------
    An argument has been forwarded that the Washington County lands 
bill removed the BLM's authority to inventory for lands with wilderness 
characteristics, and therefore the BLM's recent inventory is invalid. 
This argument stems from a misreading of Section 1972(c)(2)(A) of the 
2009 legislation, which states that Wilderness Study Areas (WSAs) not 
designated wilderness under the legislation are no longer to be managed 
as WSAs under Section 603(c) of FLPMA. The provision also prohibits the 
BLM from identifying or recommending new WSAs in Washington County. 
Section 1972, though, only pertains to WSAs and does not relieve BLM of 
its obligation under FLPMA Section 201 to maintain an inventory of 
other non-WSA lands with wilderness characteristics.\14\ Section 1972 
is limited to releasing the BLM from identifying, recommending, and 
managing WSAs under Section 603(c) of FLPMA and has no effect on the 
BLM's ongoing inventory mandate under FLPMA Section 201.
---------------------------------------------------------------------------
    \14\ Id.
---------------------------------------------------------------------------
    It is important to note that, although much is being made of the 
BLM's wilderness characteristics inventory, BLM's preferred alternative 
in the draft NCA RMP merely identifies public lands in Washington 
County that possess wilderness characteristics. Much to the UWC's 
displeasure, the BLM's proposed alternative does not manage any of the 
identified wilderness-quality lands for protection of those wilderness 
characteristics. Although the UWC opposes the BLM's preferred 
alternative as it relates to management of identified wilderness 
characteristic lands, we fully support the BLM in upholding its mandate 
under FLPMA Section 201 to keep an updated inventory of lands with 
wilderness characteristics that it manages.
                               conclusion
    Thank you for the opportunity to submit testimony on the BLM's NCA 
RMP planning process. We encourage the committee to take a hard look at 
the language, intent, and context of the Washington County lands bill, 
as was explicitly understood by all stakeholders at the time of 
passage, and to support the BLM's 6-year process to develop a 
conservation-focused management plan for the Beaver Dam Wash and Red 
Cliffs NCAs.

                                 ______
                                 

    Mr. McClintock. Chairman Bishop defers to the end of the 
panel, so the Chair is pleased to recognize Congressman Bruce 
Westerman of Arkansas.
    Mr. Westerman. Thank you, Mr. Chairman. It is a pleasure to 
be here today. It takes a while to get here from Arkansas, but 
these issues are not only important to Utah, they are important 
to the whole country. We do not have BLM lands in Arkansas, but 
we do have a lot of Federal lands. As a matter of fact, if you 
take out the states that have only one Congressman, my district 
has more Federal lands than any other congressional district in 
the country.
    I also wanted to come out and see the Dixie National 
Forest, which should probably be in my district with a name 
like that.
    There are some unique similarities to what is going on here 
and what I think is happening across the country. My district 
actually has the first national scenic river. One hundred and 
thirty-five miles of the Buffalo National River is located 
partially in my district, and I notice that there are 19 miles 
of national and scenic rivers that would be designated in this 
project.
    That happened in 1972, over 40 years ago, and there were a 
lot of negotiations, a lot of hard feelings; but the project 
was put in place, and it is a treasure that we have there in 
the state, and my family and I personally enjoy spending time 
on that river. Thousands of visitors come to it.
    Still, there are agreements that were put in place that may 
not have made everybody happy at the time, but they are still 
in place and they are adhered to. That is one of the things 
that intrigued me about this, the rule of law and community 
involvement.
    When I, from 1,000 miles away, read about this situation in 
newspaper reports and documents from the committee, it appears 
to me that the law is being ignored, a law passed by Congress. 
This seems to be a pattern with the BLM. I know we have had 
committee hearings where down in Louisiana there is a dispute 
over surveys that were part of the Louisiana Purchase, land 
that had been in families for over 100 years and now BLM is 
saying they do not have clear title to the land. It is creating 
hassle for the taxpayers and the citizens of our country.
    We actually have a pretty good relationship with the 
Federal agencies in my district, with the Park Service, with 
the Forest Service, with U.S. Fish and Wildlife, but I see 
there are a lot of issues, especially with BLM, across the 
country, and it is creating a bad environment for what a non-
personal observer like me sees from a long way away.
    My question to Ms. Whitlock is, do you as a BLM employee 
recognize that you are creating some very bad publicity for BLM 
across the country?
    Ms. Whitlock. I guess to that I would say that I think some 
of what is going on in other parts of the West is, in my 
experience, isolated. The BLM works closely with our 
stakeholders, our public land users, our neighbors, and I think 
for the most part it is very well supported in the West.
    Mr. Westerman. This law was passed under a Democratic 
Congress and a Democratic President, but it had been worked on 
with bipartisan support over the years, and this law is not 
being enforced. That causes me great concern, because that is 
much bigger than any one project that is being taken on. Dwight 
Eisenhower said, ``The clearest way to show what the rule of 
law means to us in everyday life is to recall what has happened 
when there is no rule of law.''
    Whether we like what is in it or dislike what is in it, or 
have our own interpretation, I think it is important that we 
have to abide by the law.
    The second issue is local input. This law was developed 
with local input, and it is almost like the Charlie Brown and 
Lucy scenario where the football gets pulled away. At some 
point in time, we will not tolerate or we will not have the 
trust anymore that we need. But I have always believed, from 
serving on a school board and in my state legislature, that 
government is most effective when it is closest to the people. 
But it appears that that has been bypassed in this process.
    Mayor Pike, you talked about this a little bit, but do you 
believe there has been sufficient public input? Do you believe 
the public here in St. George has bought into this plan and 
feel like they have been a part of what BLM put together?
    Mr. McClintock. And this would need to be a yes or no 
answer.
    Mr. Pike. No.
    Mr. McClintock. Thank you.
    The gentleman's time has expired.
    The Chair is now pleased to recognize Congressman Cresent 
Hardy of Nevada.
    Mr. Hardy. Thank you, Mr. Chairman.
    Ms. Whitlock, as a Member of Congress, we constantly hear 
from our constituents that they are not sufficiently being 
heard, that BLM is not coordinating with their public agencies 
and the individuals involved, that most of the time the 
response is we have already had these listening sessions, we 
have had these meetings, as though it is a check-off-the-list 
type of situation.
    When you hear that the state and the county were stunned to 
find that many of the promises in the land bill were left out 
of alternatives in the draft RMP, what goes through your mind? 
Director Clarke is here today and says that, ``they were left 
out of critical deliberations and were not invited to the 
table.'' Is she incorrect?
    Ms. Whitlock. We really feel like we have a good record of 
meeting with not only our cooperating agencies and stakeholders 
but members of the public.
    Mr. Hardy. Is she incorrect?
    Ms. Whitlock. The state of Utah is a cooperating agency 
with us on this RMP, and we have met with them.
    Mr. Hardy. Is she incorrect or not? Yes or no?
    Ms. Whitlock. We believe we have made a very good-faith 
effort to listen to not only----
    Mr. Hardy. So you are basically calling her a liar.
    Commissioner Gardner says that the county submitted a 
written comment outlining concerns but received no response 
from the BLM. Is it standard practice to not respond to 
comments from the cooperating agencies?
    Ms. Whitlock. No, that is not standard. We are carefully 
considering the 14,000 comments that we received from the 
public, and the feedback that we have gotten from our 
cooperating agencies, as well as other government entities.
    Mr. Hardy. Thank you.
    According to Director Clarke, the BLM stated that the 
travel management plan is not the right planning document to 
identify a route and a highway, and the Congress made a mistake 
by calling the identification of the route the travel 
management plan.
    Commissioner Gardner also stated that the local BLM office 
has asserted that Congress should have read the BLM manuals 
before passing the land bill, and that Congress screwed up. 
They also stated that the local employees cited BLM manuals 
with respect to the releasing of wilderness study areas, saying 
a release by Congress will give a strong consideration.
    Strong consideration? Where does BLM get off by saying that 
the Congress is right or wrong?
    Ms. Whitlock. I, and the 900-some employees that work for 
me, come to work every day to do one thing, and that is to 
carry out the law. We are very committed to sincerely engaging 
with stakeholders and our cooperating agencies. We think we 
have a very good track record of implementing these public land 
bills in the West, and we believe in them and are doing our 
best to implement the law.
    Mr. Hardy. I would just like to emphasize one strong issue, 
that in our National Archives in our national capital, you will 
not find BLM manuals proudly displayed, and the last time I 
checked Article 1, Section 1 of the Constitution vests all 
legislative powers in Congress of the United States. The last 
time I checked Article 1, Section 8 of the Constitution vests 
the power to make laws with Congress of the United States, and 
nowhere in the Constitution is there any mention of the Bureau 
of Land Management, let alone any authority to rule on what 
Congress can or cannot do. The Federal agencies get their 
limited authority that they currently have from Congress. And 
according to Article 2, Section 3, faithfully execute the laws 
passed down, to the word and punctuation, not selectively 
interpret them.
    I believe that through this process, that there was an 
omnibus that was written, it was passed by Congress. We should 
make sure we follow all of them. Mr. Gardner has stated there 
are six violations. I want to make sure that we continue to 
follow that omnibus as it was written and work with the local 
entities, because they are the ones that represent the people 
in this area.
    Mr. Stewart represents his constituents of this area, and 
he is the one voted here to work with his constituents. I 
believe you should also be involving Congressman Stewart in 
these discussions.
    Thank you.
    Mr. McClintock. Thank you very much.
    The Chair is now pleased to recognize the Chairman of the 
House Natural Resources Committee, Congressman Rob Bishop, for 
5 minutes.
    Mr. Bishop. I want to thank everyone who has come here 
today, especially my friends from the committee. We have two 
Californians who have come up here; nicer weather here. We have 
Cresent, who came from Nevada; not much of a trip for you. And 
our good friend from Arkansas; this was a trip for you. It is 
snowing back where you are, and even though you are in Utah's 
Dixie, you at least brought the right accent for it. So, thank 
you.
    And also to my two colleagues from Utah, you obviously had 
to be here.
    I just want you to know that Congresswoman Love would have 
liked to have joined us here, but she is covering for us back 
up in Salt Lake right now. Otherwise, she would have joined us 
at the same time.
    Ms. Clarke, can I start off with you? In Alternative B and 
C, there is no mention of the corridor, the transportation 
route. If B or C were to go forward, do you believe there is 
any reasonable right-of-way corridor that would be available in 
any subsequent travel management plan?
    Ms. Clarke. Not by my understanding. I think that precludes 
them.
    Mr. Bishop. So, if it is not going to be in the management 
plan, it is kind of disingenuous to say we will do it later?
    Ms. Clarke. Yes.
    Mr. Bishop. If it is not in the management plan, there is 
no way it is going to be in the transportation plan.
    Mayor, can I ask you a question? It has been alluded to 
that there is no way to actually make this kind of road, it is 
impossible to do it. Have there been studies on the potential 
of doing a road?
    Mr. Pike. Yes, there have been.
    Mr. Bishop. Is it viable?
    Mr. Pike. We believe it is, through the local 
transportation committee that is formed here in the county. We 
have studied viable alternatives.
    Mr. Bishop. Commissioner Gardner, I have to admit, the 
language in the 2009 bill that we are talking about here is 
pretty squishy on grazing. It is pretty lousy language. I think 
BLM can probably get away with what they are trying to do 
there. But can I ask you what would happen if you actually did 
reduce the grazing to 40 percent? What would be the impact on 
grazing here in the county?
    Mr. Gardner. Well, grazing has already been reduced out 
there to start with, because of the desert tortoise when it was 
listed 20 years ago or more. So, we are already managing it for 
the tortoise. And the winter grazing is a critical part of an 
individual's permit. If he loses his winter grazing rights, 
that often cuts into what he is allowed in the summertime as 
well. So, it is an important part to make a year-round 
operation.
    Mr. Bishop. Thank you.
    Let me make one observation here. Ms. Whitlock, the 
testimony that was given by BLM I noticed does not come from 
you. It has to be vetted back in Washington, go through all the 
hoops. Consequently, the testimony we usually get from BLM is 
pretty weak. And I was frustrated with the testimony that was 
written, not your oral testimony, but the written that was sent 
here, because it was picking and choosing laws, which law from 
which bill you wish to look at. There are some references to 
the 2009 law, some to one in the 1990s, some in the 1970s. The 
2009 law actually supersedes the rest of the law. If you are 
going back, FLPMA is not an organic law. It is not part of the 
Constitution. If it is modified in 2009, that becomes the 
ruling document.
    In that document, it said that there would be one or more 
transportation plans. That means that, I'm sorry, having four 
alternatives out there with one of them having a transportation 
plan does not meet either the spirit or the letter of that law. 
That means there has to be a transportation alternative in 
every one going forward. One or more does not mean zero. Having 
A, B, and C with zero options, that violates not just the 
intent, but the clear language of the 2009 law. I am sorry, you 
did it wrong.
    That law also says that local governments have to be the 
coordinating and cooperating agencies. You have not done that.
    I am sorry, but if there is any element of integrity right 
here, what BLM needs to do is throw all four plans out--D comes 
closest to obeying the law, and that is a crappy plan. Start 
over again. This time, do it the way the law says to do it. 
First of all, involve local government as a coordinating 
agency, as the law told you to do, and have a transportation 
plan in each of the alternatives, as the law clearly expected 
you to do.
    Doing wilderness inventories in areas the law told you not 
to do, wilderness inventories that were taken off the list of 
potential wilderness, is once again a violation of the 2009 
law. Those laws have to be respected in some particular way.
    I will yield back.
    Mr. McClintock. We will give you a 30-second credit.
    The Chair is now pleased to recognize the Congressman for 
this district, the Honorable Chris Stewart, for 5 minutes.
    Mr. Stewart. Thank you once again, Mr. Chairman.
    I had a list of questions prepared based on the witnesses' 
provided testimony, and I want to get to that. But, Mr. Van 
Dam, some of the things you have said, I just feel like I have 
to pursue. You gave us a brief history of Utah and Mormon 
persecution. I have to ask if you think the distrust of the 
Federal Government, or in this case the distrust of citizens of 
the BLM, is unique to Utah.
    Mr. Van Dam. No, I do not think it is unique to Utah.
    Mr. Stewart. It is clearly not unique to Utah, is it?
    Mr. Van Dam. I am not here to represent the BLM, but I am 
here to tell you that they have certainly served me well. That 
is my personal experience.
    Mr. Stewart. I appreciate that. We understand that some 
people may have different experiences, but your opening 
testimony would seem to indicate that this is something that is 
a problem in Utah, and it is very clearly not.
    Mr. Van Dam. It is a bigger problem in Utah than anywhere 
else in this country.
    Mr. Stewart. I don't think that is true at all, sir. We 
could take you to other states and they would absolutely 
disagree with that. But I want to get to my question.
    Mr. Van Dam. Sure.
    Mr. Stewart. We have evidence of that here by the fact that 
we have representatives from as far away as Arkansas who 
understand that this is a problem. This is not unique to Utah 
at all. I would argue it has very little to do with Utah 
history, with Mormon pioneers, or our distrust of the Federal 
Government.
    So, I want to ask you, and I sincerely want to understand 
if you appreciate this, can you articulate why we distrust the 
Federal Government? Do you understand that?
    Mr. Van Dam. Well, I understand my feelings about the 
Federal Government.
    Mr. Stewart. No. I am asking if you can understand why 
there are a lot of people in this room and a lot of people in 
this county who do not trust the Federal Government.
    Mr. Van Dam. Certainly to some degree I do, but not to the 
extent that I experience it in this city and in this county.
    Mr. Stewart. Then why don't we trust the Federal 
Government? Can you tell us why we don't?
    Mr. Van Dam. Well, sometimes they do not speak our 
language. That is true.
    Mr. Stewart. What do you mean by that, ``they do not speak 
our language'' ? We are all speaking English. This is not our 
people and their people, by the way, coming back to your 
opening comment as well. We are all Americans. We all speak the 
same language.
    Mr. Van Dam. Technically we do, but you get a lot of 
different attitudes in different parts of the country, and I 
can tell you that Utah has its own particular attitude, 
particularly about the government, and it manifests in a much 
more powerful way than in other states.
    Mr. Stewart. Well, again, I completely disagree with that.
    Mr. Van Dam. You are entitled to.
    Mr. Stewart. I don't know if you spend enough time in other 
states because, very clearly, they have as much emotion on this 
as we do.
    One other comment, and I won't ask you to address this; I 
want to come to my more prepared statements with our elected 
officials. That is, you indicated you lived in Salt Lake City, 
and that there was dirty air up there, and you said that there 
are people here who want to have dirty air here in our county. 
I think that is a good indication of my opening comment about 
the presumption that people are ill-willed in this, because 
they are not. Show me someone, show me anyone who genuinely 
wants dirty air. I don't think such a person exists.
    There are differences of opinion on how we can proceed, but 
we all want the same outcome. We want to protect this place. We 
want this place to be as beautiful for our grandchildren as it 
was for our grandfathers. But there are differences of opinion 
sincerely held, genuine differences of opinion, on what is the 
right answer on these issues, and they are controversial, I 
understand that. But to start from the position that someone 
wants dirty air I think is an unfair characterization of 
someone's position.
    Mayor Pike, if I could, one of the problems that we have in 
this is that many of us are willing to accept an outcome if we 
feel like the process was fair, the rules were followed, and 
the law was followed. Many of us feel, again, the frustration 
that that was not the case here.
    If you could go back and change one thing in the process 
and improve that--and, Commissioner Gardner, I would ask you 
the same question--what would be the one thing you would change 
to make citizens feel like the process was more open to their 
concerns?
    Mr. Pike. Again, as I stated in my testimony, I would have 
expected, under the language of the 2009 law, to have had many 
discussions with the BLM about all of these issues that have 
been raised today, and in particular: water rights, power, and 
water distribution through and across these areas, that would 
have been huge. The transportation corridor would have been 
huge. It would have been really nice to talk with Alternative 
D, that does include a northern corridor, having the different 
alternatives for the corridor in aggregate and saying that is 
too bad, we cannot accept that. I think that was disingenuous. 
I would have liked to have had those conversations before the 
plan was released.
    Mr. Stewart. Thank you. My time has expired. I believe I 
can see the clock. I believe it has 4 seconds.
    Commissioner Gardner?
    Mr. McClintock. Yes or no.
    Mr. Gardner. As I stated in my testimony, I think the 
biggest thing, if Washington County could have been a full 
cooperating agency, like the agreement we signed with BLM with 
the MOU, the majority of these issues could have been resolved.
    Mr. Stewart. Thank you.
    Mr. McClintock. Thank you. The gentleman's time has 
expired.
    Finally, the Chair is pleased to recognize the Chairman of 
the House Oversight and Government Reform Committee, the 
distinguished Representative from Utah, Mr. Chaffetz, for 5 
minutes.
    Mr. Chaffetz. I thank the Chairman, and I thank those who 
have come a long way to participate with us today. I appreciate 
those of you who traveled throughout the state and the region 
to be here as well.
    Ms. Whitlock, how many BLM employees do you have in the 
state of Utah?
    Ms. Whitlock. Somewhere between 900 and 1,000 employees 
throughout the state.
    Mr. Chaffetz. Wow. That has to change. That is ridiculous.
    How many worked on this plan?
    Ms. Whitlock. Gosh, I would be speculating. Maybe a dozen 
BLM employees.

    Mr. Chaffetz. A dozen employees. When did they start?

    Ms. Whitlock. Scoping was kicked off in 2010.

    Mr. Chaffetz. When in 2010?

    Ms. Whitlock. I believe it was in the fall of 2010.

    Mr. Chaffetz. These dozen employees, can you provide the 
names of those employees that worked on this plan?

    Ms. Whitlock. Not today. I would be happy to follow up.

    Mr. Chaffetz. When can you provide us the names of the 
employees who worked on that plan?

    Ms. Whitlock. Following this hearing I would be happy to.

    Mr. Chaffetz. Thank you. That started in 2010. When is the 
first time you invited the city of St. George to participate?

    Ms. Whitlock. I'm sorry, I don't know what the date would 
be. I am happy to follow up with that.

    Mr. Chaffetz. Mayor, do you happen to know?

    Mr. Pike. There was no invitation.

    Mr. Chaffetz. How many meetings did you have internally to 
create and develop this plan, Ms. Whitlock?
    Ms. Whitlock. I wouldn't want to hazard a guess.

    Mr. Chaffetz. How many times were you involved?

    Ms. Whitlock. I have been briefed on it a number of times, 
and also traveled here to St. George. I met with the County 
Commission in one of our meetings.
    Mr. Chaffetz. How many outside groups did you meet with?

    Ms. Whitlock. Again, I apologize. I believe it is in the 
draft EIS, those that were involved in the development and with 
whom we scoped.
    Mr. Chaffetz. Can you provide that to us as well?

    Ms. Whitlock. Yes, we would be happy to.

    Mr. Chaffetz. Mayor, let's go back to you. Explain to me 
what the process should have been, what your expectations 
should have been, to make sure that you were included, as 
required by the law.
    Mr. Pike. We would have liked to have had the opportunity 
to have elected officials, as well as our key department 
managers affected by this--water, power, and infrastructure 
such as transportation--at a table where we could sit around 
and discuss the key issues. Again, we cannot have the 
disruption of potentially 37 percent of our water, as is 
currently outlined in the draft management plan. So, we would 
have liked to have had a process not just one time, but 
multiple times, where we could have sat down as cities, as well 
as the county, to discuss all the relevant issues.
    Mr. Chaffetz. And, Commissioner, what should have happened? 
What was the reality, and what should have happened?
    Mr. Gardner. We started off on the right process. We had a 
signed agreement with the BLM that Washington County would be a 
cooperating agency in the development of our plan. We 
continually asked the area manager that was here at the time to 
be involved. He said, ``Well, we are just working on it in bits 
and pieces. It is going to be really hard to schedule to get 
you in.'' We had three times that the BLM has in their records 
that we were invited to participate in an actual meeting 
developing the plan. Two of those times we were there. The 
third time we were not able to attend. We were brought in again 
five or six times to kind of give us an update, but we were 
never advised of the surprises that we got.
    If we had been fully involved as a cooperating agency, I 
don't think we would be having this hearing here today.
    Mr. Chaffetz. Ms. Whitlock, this does not sound like it is 
in accordance with the law. Does it sound like the spirit of 
cooperation was in place? Is this the way it should operate? 
Are you proud of the way this has moved forward, or is this a 
model of something gone awry and askew of the law?
    Ms. Whitlock. Not that it is an account, but we have met 
with, either formally or informally, cooperating agencies and 
other government entities probably 20 times over the course of 
the planning effort. Since we issued the draft in July, it has 
been more like a couple of times a month.
    I completely get that coordination is in the eye of the 
beholder. We felt like we made a good-faith effort to 
coordinate with our partners. Alan, I think you would agree our 
current field office manager, Brian Tritle, is very sincere in 
his efforts to reach out to the county, and we are doubling our 
efforts to meet their needs.
    Mr. McClintock. Thank you. The gentleman's time has 
expired.

    That concludes the committee's oral questions.

    Pursuant to an earlier action of the committee, the Chair 
is now pleased to recognize the Chairman of the Natural 
Resources Committee for 5 minutes.
    Mr. Bishop. I just want to make one final statement as we 
end this particular hearing.
    Ms. Whitlock, I appreciate what you are doing as the 
manager of this. There are a couple of things of which I am 
critical, though, and therefore I have to hold you responsible 
for that.
    We had invited some of the local BLM officials to be here 
to answer questions. They were asked not to be here, not even 
to be in the building. I find that sad and improper. That is 
why you are on the hot seat here. You are going to be held 
responsible for all the things that we have to come up with in 
this process.
    As we have gone through this, this process has violated the 
written law of 2009. But I think there are two shining, bright 
linings to the dark cloud over this process that I hope lead us 
in the future.
    One is that we are going to insist they actually have 
hearings in Washington. The Washington bill had a lot of 
hearings here, but they did not have any hearings in the House, 
and it was actually dropped into an omnibus bill with over 100 
other bills that no one actually talked about. No one had a 
hearing. There was never a markup on anything. That process has 
to go forward. So, as we do bills in the future, at least in 
our committee, we are going to have hearings and we are going 
to have markups to do it the proper way.
    I think you can see that there is some loose language in 
here. As we go forward with other bills in the future, I am 
dedicated to making sure that that loose language is now 
eliminated. Some of it simply says, ``Well, the Department of 
the Interior shall do whatever they think is the right thing to 
do.'' We can see right now that does not work.
    What we are doing from now on is when Congress passes a 
law, I am going to make sure that the law simply says this is 
what will happen, and we are going to hold the Administration 
accountable to actually obeying the law. In any bill that we 
actually produce that comes from our committee, we are going to 
be looking at the verbiage very carefully so there will not be 
that kind of loose language.
    And, I'm sorry, there is loose language in this bill, but 
there is also some specific direct language in there that BLM 
has not actually followed through on. So, we want you to look 
at the most recent language and obey the language, and I am 
going to tell you once again, I think you need to start this 
process over. You have four alternatives, none of which, none 
of which meet the letter of the law, and you need to do that 
one more time and do it the right way.
    With that, I appreciate my colleagues once again having 
been here. I appreciate all of you for being here. When we said 
no applause, you all did it. Thank you. Thank you for being 
part of keeping the process going here. We appreciate your 
attendance here.

    Mr. Chairman, I will let you send us away.

    Mr. McClintock. Very well. Thank you.
    I would like to thank all of our witnesses for their 
testimony, and joining the Chairman's thanks to the audience. 
The decorum you have displayed here has been exemplary of a 
democracy in action, despite very passionate views on both 
sides. This is the best of our country, and I do thank you very 
much for your participation today.
    Members of the subcommittee may have additional questions 
for witnesses. We would ask that they respond in writing, and 
the hearing record will be kept open for 10 business days to 
receive those responses.

    If there is no further business, without objection, the 
subcommittee stands adjourned.

    [Whereupon, at 11:39 a.m., the subcommittee was adjourned.]

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

    --Prepared Statement of The Wilderness Society

    --Comments submitted for the record from attendees at the 
            field hearing

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
